 SIGAR
      d                                 Special Inspector General for
                                         Afghanistan Reconstruction




                                                   SIGAR 14-47 Audit Report




        Afghan Customs: U.S. Programs Have Had Some
        Successes, but Challenges Will Limit Customs
        Revenue as a Sustainable Source of Income for
        Afghanistan




                                                            APRIL
                                                           2014
SIGAR 14-47-AR/Afghan Customs Revenue
SIGAR
                                                   APRIL 2014
                                                   Afghan Customs: U.S. Programs Have Had Some Successes, but
                                                   Challenges Will Limit Customs Revenue as a Sustainable Source of
                                                   Income for Afghanistan
Special Inspector General for                      SIGAR 14-47 Audit Report
Afghanistan Reconstruction
                                                   WHAT SIGAR FOUND
WHAT SIGAR REVIEWED
                                                   A nation’s ability to control its borders is essential in controlling the flow of licit
Since 2009, the United States has                  and illicit goods and assessing appropriate tariffs and customs duties.
allocated at least $198 million toward             Customs revenue is a major component of Afghanistan’s national budget,
efforts to assist in developing the capacity       which is currently funded through a combination of domestic revenue
of the Afghan government to assess and             collections and aid from international donors. For Afghanistan’s 3 most recent
collect customs revenue. The U.S. Agency           fiscal years, customs revenue collections produced $698 million-$1.1 billion
for International Development (USAID)              annually, accounting for 44-48 percent of total domestic revenue collection.
administered the Trade Accession and               However, domestic revenues continue to fall short of expenditures, and
Facilitation for Afghanistan (TAFA) I and          international assistance is expected to decline in coming years. As a result,
TAFA II programs from November 2009                increasing the Afghan government’s collection of domestic revenues is a main
through August 2013. These programs                objective of both the U.S. and Afghan governments.
were followed by the Afghanistan Trade
and Revenue (ATAR) program as a follow-            The U.S. government—through programs run by the U.S. Agency for
on activity beginning in November 2013.            International Development (USAID) and the Department of Homeland
The Department of Homeland Security’s              Security’s Customs and Border Protection (CBP)—has provided funding and
Customs and Border Protection (CBP) has            expertise to assist the Afghan government in developing and reforming its
operated as the administrator for the              customs assessment and collection capabilities. USAID has administered
Border Management Task Force (BMTF)                multiple projects designed to improve the trade and customs environment,
since its inception in 2006. Through these         including two Trade Accession and Facilitation for Afghanistan (TAFA)
programs, the government has worked to             programs—called TAFA I and TAFA II—between November 2009 and August
develop and reform Afghanistan’s laws,             2013, and their successor program—the Afghanistan Trade and Revenue
policies, and procedures for customs               (ATAR) program, which started in November 2013. CBP has administered the
processes operating at the Afghan                  Border Management Task Force (BMTF), a program that mentors Afghan
Customs Department (ACD) headquarters              Customs Department (ACD), Afghan Border Police, and Afghan Customs Police
and customs locations throughout                   agents at border control points and inland customs depots.
Afghanistan.                                       USAID’s two TAFA programs resulted in some successes. Among their
This audit (1) assessed the extent to              accomplishments, the TAFA programs assisted the Afghan government in
which these USAID and CBP programs                 trade negotiations and significantly reduced customs processing times and the
achieved their intended outcomes, and (2)          number of steps required to trade across Afghanistan’s border. Specifically,
examined challenges to creating a stable           they reduced the number of customs process steps at nine inland customs
and lasting source of customs revenue for          depots and the Kabul International Airport—customs locations that account for
Afghanistan.                                       98 percent of Afghanistan’s customs revenues—reportedly resulting in annual
                                                   cost savings to importers and the Afghan government of $39 million.
To accomplish these objectives, SIGAR
reviewed Afghan customs law, policies,             CBP’s BMTF also had some successes. For example, the BMTF upgraded the
and procedures; examined USAID and                 Kabul Airport Customs Yard, which, according to CBP officials, reduced
CBP contract documents and program                 customs processing time from 10 to 2 days and created a 37 percent increase
files; interviewed ACD, USAID, CBP, BMTF,          in customs revenue at that location. BMTF reports show that BMTF mentors
U.S. Embassy, and other officials; and             held more than 7,000 training sessions between 2010 and 2013, and
visited customs locations in Afghanistan.          assisted the ACD in conducting more than 670 seizures during that same
                                                   period.
                                                   Nevertheless, SIGAR found that BMTF mentors operate under contracts and
                                                   subcontracts that do not contain performance metrics. Specifically, the




      For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
contract documents for BMTF activities do not include a single metric that defines specific, measurable goals
for the BMTF mentors to achieve or performance metrics to measure the program’s success.
According to USAID, CBP, and TAFA officials, corruption impacts all levels of the customs process and is the
biggest problem affecting Afghan customs processes and revenues. The scale and impact of corruption in
Afghanistan’s customs process is difficult to quantify. Nevertheless, USAID and ACD officials hypothesize that
eliminating or significantly reducing corruption in the customs process could potentially double the customs
revenues remitted to the central government. The BMTF also noted that criminal networks use intimidation to
smuggle commodities, resulting in the estimated loss of approximately $25 million annually for wheat and rice
imports at a single customs location. In a separate estimate, TAFA officials stated that approximately $60
million is lost annually to commercial smuggling. Further complicating efforts to combat criminal and
patronage networks are reports from BMTF advisers that Afghan employees are being kidnapped and
intimidated because they are listening to the BMTF advisers and properly collecting customs duties.
To help reduce corruption, the Afghan and U.S. governments proposed streamlining and automating customs
processes. Two major innovations in the automation of customs processes—a risk management system and an
electronic payment system—were started under TAFA. The risk management system, created to facilitate the
targeted inspection of imported cargo, is designed to optimize the use of limited security resources and
decrease transit times. While the ACD accepted the risk management system in principle, it reportedly
considered it too difficult to operate and chose to adopt a scaled down approach, with the successive
implementation of specific parts of the risk management system over a period of years.
Similarly, progress in implementing an electronic payment system for customs duties has been slow. Currently,
customs fees in Afghanistan are processed in cash at the inland customs depots where the imported cargo is
inspected and assessed customs duties. This system can lead to customs brokers traveling long distances with
large quantities of cash to pay customs fees assessed on imported goods. The current cash-based payment
system is inefficient, leaves customs brokers vulnerable to theft, and increases the opportunities for
corruption. According to USAID and TAFA program officials, at the conclusion of the TAFA programs in August
2013, the ACD had the equipment and technical knowledge needed to launch a pilot system. However, USAID
officials stated that the electronic payment system was delayed, due in part, to a proposal by an Afghan official
to allow only one Afghan bank to process all of the electronic customs payments. This arrangement would have
given the selected bank a significant and improper advantage over its competitors. Although the risk
management and the electronic payment systems are highlighted in the TAFA and ATAR contract documents as
important anti-corruption measures, SIGAR found that the ATAR contract does not require the implementing
partner to meet annual targets for implementing these systems.
The future of customs revenues as a stable source of income for the Afghan government remains unclear. The
TAFA and BMTF programs achieved some successes in reforming and developing Afghan customs law, policies,
and procedures; but, larger issues concerning questionable customs data, the withdrawal of international
forces, and corruption remain.

WHAT SIGAR RECOMMENDS
SIGAR recommends that the CBP Commissioner instruct the CBP attaché in Afghanistan to develop clear
performance metrics for BMTF mentor operations and submit such metrics to DOD/CENTCOM for incorporation
into any future BMTF contracts or task orders. SIGAR also recommends that the USAID Administrator instruct
the USAID Mission Director for Afghanistan to (1) direct the ATAR implementing partner to continue to work
with Afghanistan’s Tariffs Statistics Unit to reduce discrepancies in customs data and make the reduction in
statistical discrepancies a requirement of the contract for the ATAR program, and (2) ensure that annual
targets for implementation of anti-corruption measures, such as the electronic payment system, are included
as performance requirements in the ATAR program contract. CBP concurred with the single recommendation
directed toward it, and USAID partially concurred with both recommendations directed toward it.




For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
April 15, 2014

The Honorable John F. Kerry
Secretary of State

The Honorable James B. Cunningham
U.S. Ambassador to Afghanistan

Dr. Rajiv Shah
Administrator, U.S. Agency for International Development

Mr. William Hammink
Mission Director for Afghanistan, U.S. Agency for International Development

Mr. R. Gill Kerlikowske
Commissioner, U.S. Customs and Border Protection


This report discusses the results of SIGAR’s audit of the U.S. Agency for International
Development’s (USAID) and the Department of Homeland Security Customs and Border
Protection’s (CBP) programs designed to assist in the development and reform of
Afghanistan’s customs laws, policies, and procedures. The report recommends that the CBP
Commissioner instruct the CBP attaché in Afghanistan to develop clear performance metrics
for BMTF mentor operations and submit such metrics to DOD/CENTCOM for incorporation into
any future BMTF contracts or task orders. The report also recommends that the USAID
Administrator instruct the USAID Mission Director for Afghanistan to (1) direct the Afghanistan
Trade and Revenue (ATAR) implementing partner to continue to work with Afghanistan’s Tariffs
Statistics Unit to reduce discrepancies in customs data and make the reduction in statistical
discrepancies a requirement of the contract for the ATAR program, and (2) ensure that annual
targets for implementation of anti-corruption measures, such as the electronic payment
system, are included as performance requirements in the ATAR program contract.
We received written comments on a draft of this report from CBP and USAID. With regard to our
recommendations, CBP concurred with the single recommendation directed toward it, and
USAID partially concurred with both recommendations for the agency. CBP’s and USAID’s
comments are presented in appendices VI and VII, respectively.
SIGAR conducted this audit under the authority of Public Law No. 110-181, as amended; the
Inspector General Act of 1978, as amended; and in accordance with generally accepted
government auditing standards.




John F. Sopko
Special Inspector General
   for Afghanistan Reconstruction
                                                 TABLE OF CONTENTS

Background .................................................................................................................................................................. 2 
TAFA and BMTF Programs Achieved Some Positive Results, but USAID’s Implementing Partner Did Not Fulfill All
Contractual Requirements and BMTF Contract Documents Lack Performance Metrics ........................................ 6 

Questionable Customs Data, Drawdown of Coalition Forces, and Systemic Corruption Will Likely Hinder
Development of Customs Revenue as a Sustainable Source of Funds ................................................................. 10 
Conclusion.................................................................................................................................................................. 16 

Recommendations .................................................................................................................................................... 16 
Agency Comments ..................................................................................................................................................... 17 
Appendix I - Scope and Methodology ....................................................................................................................... 18 

Appendix II - Anticipated Results of Trade Accession and Facilitation for Afghanistan and U.S. Agency for
International Development Response ...................................................................................................................... 19 
Appendix III - Trade Accession and Facilitation for Afghanistan Program Indicators............................................. 21 
Appendix IV - Afghanistan Trade and Revenue Program Contract Review ............................................................. 38 
Appendix V - Additional Objectives for the Border Management Task Force ......................................................... 39 
Appendix VI - U.S. Customs and Border Protection Comments .............................................................................. 41 
Appendix VII - U.S. Agency for International Development Comments ................................................................... 44 
Appendix VIII - Acknowledgements ........................................................................................................................... 47 


TABLES

Table 1 - TAFA Contract Indicators and Results ......................................................................................................... 7 
Table 2 - USAID’s Contractually Identified Anticipated Results for the TAFA Program and Completion Status ... 19 

Table 3 - TAFA Program Indicators............................................................................................................................ 21 


FIGURES

Figure 1 - Map of Afghan Customs Locations ............................................................................................................ 3 


PHOTOS

Photo 1 - Cargo Truck Passes through Border Crossing at Weesh-Chaman Border Crossing Point ....................... 1 

Photo 2 - Commercial Vehicle at the Weesh-Chaman Border Crossing Point........................................................ 14 




SIGAR 14-47-AR/Afghan Customs Revenue                                                                                                                                 Page i
ABBREVIATIONS

       ACD             Afghan Customs Department
       ASYCUDA         Automated System for Customs Data
       ATAR            Afghanistan Trade and Revenue

       BCP             border crossing point
       BMM             Border Management Model
       BMTF            Border Management Task Force
       CBP             Customs and Border Protection
       CENTCOM         U.S. Central Command
       DHS             Department of Homeland Security

       DOD             Department of Defense
       ISAF            International Security Assistance Force
       TAFA            Trade Accession and Facilitation for Afghanistan

       USAID           U.S. Agency for International Development
       WTO             World Trade Organization




SIGAR 14-47-AR/Afghan Customs Revenue                                     Page ii
A nation’s ability to control its borders is essential in controlling the flow of licit and illicit goods and assessing
appropriate tariffs and customs duties. Customs revenue is a major component of Afghanistan’s national
budget, a budget funded through a combination of domestic revenue collections and aid from international
donors. Domestic revenues continue to fall short of expenditures, and international assistance is expected to
decline in coming years. As a result, increasing the Afghan government’s collection of domestic revenues is a
main objective of both the U.S. and Afghan governments. For Afghanistan’s 3 most recent fiscal years,1
customs revenue collections produced $698 million to $1.1 billion annually,2 accounting for 44-48 percent of
total domestic revenue collection.3 Further, according to the U.S. Department of Defense (DOD), revenue
generation at the borders will increase if border management improves and the various Afghan government
entities responsible for implementing reforms to customs legislation, regulation, and procedures improve their
organizational operations and reduce corruption.4

The U.S. government—through programs run by the U.S. Agency for International Development (USAID) and the
Department of Homeland Security’s (DHS) Customs and Border Protection (CBP)—has provided funding and
expertise to assist the Afghan government in developing and reforming its customs assessment and collection
capabilities.
          USAID has administered multiple
           projects designed to improve the          Photo 1 - Cargo Truck Passes through Border Crossing at
           trade and customs environment,            Weesh-Chaman Border Crossing Point
           including two Trade Accession
           and Facilitation for Afghanistan
           (TAFA) programs—called TAFA I
           and TAFA II—between November
           2009 and August 2013, and their
           successor program—the
           Afghanistan Trade and Revenue
           (ATAR) program, which started in
           November 2013.
          The CBP has administered the
           Border Management Task Force
           (BMTF), a program that mentors
           Afghan Customs Department
           (ACD), Afghan Border Police, and          Source: SIGAR, August 26, 2013
           Afghan Customs Police agents at
           border control points and inland



1Afghanistan follows the solar Hijri calendar, which began in 622 A.D. in the Gregorian calendar. SIGAR converts Hijri solar
years to Gregorian equivalents.
2 Total domestic revenue: Afghanistan collected 100 billion Afghanis in its fiscal year 1390 (March 21, 2011 through
March 20, 2012), 81.4 billion Afghanis in the 9-month fiscal year 1391 (March 21, 2012 through December 20, 2012),
and plans to collect 128 billion Afghanis in fiscal year 1392 (December 21, 2012 through December 20, 2013). Customs
revenues: Afghanistan collected 48.1 billion Afghanis in fiscal year 1390, 35.8 billion Afghanis in the 9-month fiscal year
1391, and plans to collect about 61.2 billion Afghanis in fiscal year 1392.
3 The following Afghani to U.S. Dollar exchange rates were utilized. Fiscal year 1390: 48.28 Afghanis per U.S. Dollar as of

March 20, 2012; Fiscal year 1391: 51.22 Afghanis per U.S. Dollar as of December 20, 2012; Fiscal Year 1392: 56.12
Afghanis per U.S. Dollar as of December 20, 2013.
4   U.S. Department of Defense, Progress Toward Security and Stability in Afghanistan, July 2013.




SIGAR 14-47-AR/Afghan Customs Revenue                                                                                 Page 1
           customs depots. (See photo 1 of a commercial vehicle passing through the Weesh-Chaman Border
           Crossing Point between Afghanistan and Pakistan.)
This audit (1) assessed the extent to which these USAID and CBP programs achieved their intended outcomes,
and (2) examined challenges to creating a stable and lasting source of customs revenue for Afghanistan.
To accomplish these objectives, we reviewed relevant Afghan laws, policies, and procedures related to the
assessment and collection of customs revenues, as well as contract and performance documents from USAID,
DOD, and CBP contract files. To assess the extent to which TAFA and BMTF programs, operating between
January 1, 2010, and November 07, 2013, achieved their stated objectives, we conducted program file
reviews and interviews with Department of State, USAID, CBP, International Security Assistance Force (ISAF),
an implementing partner,5 a contractor, and ACD officials familiar with the U.S. programs and visited customs
locations throughout Afghanistan. Additionally, we reviewed Afghanistan’s customs laws, processes, and
procedures to identify reforms and developments attributable to the efforts of the U.S. funded programs. To
examine challenges to creating a stable and lasting source of customs revenue for Afghanistan, we reviewed
Afghanistan’s customs data from January 2010 through November 2013, as provided by the ACD through the
BMTF, and conducted interviews with Department of State, USAID, CBP, ISAF, an implementing partner, a
contractor, and ACD officials familiar with Afghanistan’s customs capabilities. Additionally, we reviewed the
ACD customs data for statistical anomalies and data reliability. We conducted our audit work in Washington,
D.C., and Kabul, Mazar-e-Sharif, Hairatan, Spin Boldak, and Weesh, Afghanistan, from July through February
2014, in accordance with generally accepted government auditing standards. Appendix I contains more
information on our scope and methodology.


BACKGROUND

The ACD is responsible for assessing and collecting customs duties in Afghanistan and for operating a network
of border crossing points and inland customs depots. Under the current system, vehicles crossing into
Afghanistan must pass through a border crossing point before being allowed to travel farther into Afghanistan.
Once in the country, commercial vehicles must proceed to the nearest inland customs depot to undergo a
customs inspection, during which the value of the transported goods is determined and the customs duty is
assessed and paid.
See figure 1 below for a map of the locations of Afghanistan’s 11 border crossing points and 17 inland
customs depots.




5   “Implementing partner” is a term USAID uses to mean contractors and recipients of cooperative agreements and grants.




SIGAR 14-47-AR/Afghan Customs Revenue                                                                             Page 2
Figure 1 - Map of Afghan Customs Locations




Source: Afghan Customs Department


Afghan Efforts to Develop and Reform Customs Capabilities
Recognizing the importance of customs revenues for its sustainability, the Afghan government has made a
number of commitments to reform and enhance its customs collection capabilities. These commitments
include reforming processes to align with the World Customs Organization’s Revised Kyoto Convention6
concerning customs processes and procedures; an attempt to gain admittance to the World Trade Organization
(WTO); and promises made during the conclusion of the Tokyo Mutual Accountability Framework7 to create a
more efficient, transparent, and accountable customs and tax system. Further, the Afghan government has
demonstrated the importance of customs collection by developing formal plans to bolster the capability and
capacity of the ACD and giving customs collection a prominent place within the Afghanistan National




6The Revised Kyoto Convention is a blueprint for international modern customs procedures providing international
commerce predictability and efficiency in customs operations.
7 The Tokyo Mutual Accountability Framework establishes mutual commitments of the Afghan government and the

international community to help Afghanistan achieve its development and governance goals.




SIGAR 14-47-AR/Afghan Customs Revenue                                                                              Page 3
Development Strategy.8 The ACD’s plans for developing its customs capabilities focus on collecting revenue
with maximum efficiency and facilitating trade through faster clearance of goods while preventing smuggling.
The Afghan government has made some achievements in these areas, including passing more modern
customs legislation, simplifying customs procedures, and constructing new customs facilities.


USAID and CBP Programs to Develop and Reform Afghanistan’s Customs
Capabilities
Given the importance of customs revenue to the stability and sustainability of the Afghan government, the U.S.
government has implemented several programs designed to assist the Afghan government in developing and
reforming its customs collection capabilities.

USAID’s TAFA Programs
Since 2002, USAID has administered programs to enhance the Afghan government’s ability to generate
domestic revenues by focusing efforts on improving conditions for international trade and transit. To achieve
those goals, USAID most recently administered two TAFA programs. The TAFA I program ran from November
2009 through November 2012, and the TAFA II program ran from November 2012 through August 2013.
Major initiatives of the TAFA programs included efforts to facilitate international trade, reform customs laws,
procedures, and revenue collection capabilities at the ACD, and to reduce the time and expense of customs
clearance and transport for imports and exports.
Together, the TAFA I and TAFA II projects, both awarded to Chemonics, Inc., were carried out from November
2009 through August 2013, at a cost of $83.8 million.9 USAID awarded TAFA I in November 2009,10 as a cost-
plus-fixed-fee contract11 that included three broad components: (1) trade policy liberalization, (2) trade
facilitation, and (3) public outreach on trade-related issues. TAFA I sought to reform Afghanistan’s customs
capabilities by improving processes and minimizing roadblocks to Afghanistan’s institutional capacities related
to trade policy and execution, customs processes and procedures, and public outreach on customs related
issues. In August 2012, USAID awarded TAFA II as a time and materials contract, with a start date in October
2012.12 TAFA II focused on improving the same processes specified in TAFA I, with the addition of improving
revenue collection and strengthening links between field offices and the ACD headquarters.
Both the TAFA I and TAFA II contract documents state that the projects
           “will result in the Afghan Government’s improved capacity to negotiate and implement
           regional and international trade agreements and progress toward World Trade Organization
           (WTO) accession; . . . increased cooperation on trade and customs issues within the region;
           increased transparency and reduced obstacles to trade, including areas such as customs,
           transport/transit, and border crossing operations; increased Customs revenue collection


8 The Afghanistan National Development Strategy serves as a framework for poverty reduction and economic growth efforts
in Afghanistan. The Strategy is divided into three pillars of security, governance, and development and provides metrics to
measure progress in each area.
9   The TAFA I project was obligated $63,962,156 and the TAFA II project was obligated $19,791,053.
10   USAID contract number 306-C-00-09-00529-00, signed November 18, 2009.
11FAR 16.306(a) describes a cost-plus-fixed-fee contract as “a cost-reimbursement contract that provides for payment to
the contractor of a negotiated fee that is fixed at the inception of the contract.”
12 A time-and-materials contract provides for acquiring supplies or services on the basis of (1) direct labor hours at

specified fixed hourly rates that include wages, overhead, general and administrative expenses, and profit; and, (2) actual
cost for materials. See FAR 16.601.




SIGAR 14-47-AR/Afghan Customs Revenue                                                                                Page 4
           returning to the Central Treasury; increased investment, exports, and market-based
           opportunities; improved ranking on the World Bank’s trading across borders indicator as part
           of the annual Doing Business survey.”13

CBP’s BMTF Program
CBP oversees the BMTF, a U.S. Central Command (CENTCOM)-funded14 task force started in 2006.15 The
BMTF’s primary goal is to assist the Afghan government in securing its borders by providing expertise related to
customs and border operations—primarily in counternarcotics. While the BMTF’s mission is not specifically to
reform Afghanistan’s customs laws, policies, and procedures, many of the techniques and much of the
equipment provided by the BMTF can be used not only for counternarcotics activities, but also for efforts to
reduce commercial smuggling, which may result in increased efficiency in customs processes and higher
domestic revenue collections. Further, the BMTF provides advisers at border crossing points and at inland
customs depots, allowing for mentoring that can positively affect the execution of customs procedures and
reduce opportunities for corruption.
CBP submits personnel and operational requirements for the BMTF to CENTCOM, which then submits requests
for funding to DOD. BMTF advisers are currently funded through a contract executed by the Army Acquisition
Center.16 This contract, awarded to CACI, Inc., provides for a wide range of counternarcotics activities in a
variety of countries, including the activities of the BMTF in Afghanistan.17 CACI, Inc., in turn, has subcontracted
responsibility of providing advisers for the BMTF to Fedsys, Inc., at a cost of approximately $36.5 million.18
While the BMTF is funded by DOD through CENTCOM, its operations are supervised by CBP personnel under
U.S. Embassy Chief of Mission authority. Additionally, U.S. Forces-Afghanistan previously had military members
embedded in the BMTF to ensure the strategic integration of BMTF activities into the military campaign plan.




13USAID contract number 306-C-00-09-00529-00, signed November 18, 2009, and USAID contract number AID-EEM-I-00-
07-00008, signed August 15, 2012.
14 In 2007, the CBP and Department of State requested DOD counterdrug support to fund the creation and activities of the

BMTF. The DOD responded to this request by providing counterdrug funding managed by CENTCOM under section 1004 of
the National Defense Authorization Act for Fiscal Year 1991, 104 Stat. 1629 (1990) (codified as amended at 10 U.S.C. §
374 note), and section 1033 of the National Defense Authorization Act for Fiscal Year 1998, Pub. L. No. 105-85, 111 Stat
1629, 1881-84 (1997), as amended.
15 The BMTF evolved from the U.S. Embassy in Kabul’s Border Management Initiative. The Border Management Initiative

was created from a joint request from the U.S. Ambassador to Afghanistan and the U.S. Forces–Afghanistan Commander in
2006. The purpose of the Border Management Initiative was to assist the Afghan government to develop a comprehensive
border security strategy that would promote stability by combating the flow of illicit narcotics and contraband across
Afghanistan’s borders.
16   BMTF mentors operate under contract number W15P7T-06-D-E402, task order 0127 and task order 0096.
17 Other support activities for the BMTF, such as the provision of armored vehicles for the use of the advisers, are funded
through contracts executed by the DOD’s Counter-Narco Terrorism Program Office/Acquisitions Management Integrations
Center.
18 At the conclusion of task order 0096 in June 2013, Fedsys Inc. had been paid $17,689,597. As of June 2013, Fedsys

Inc. had been paid $18,850,894 under task order 0127.




SIGAR 14-47-AR/Afghan Customs Revenue                                                                                 Page 5
TAFA AND BMTF PROGRAMS ACHIEVED SOME POSITIVE RESULTS, BUT
USAID’S IMPLEMENTING PARTNER DID NOT FULFILL ALL CONTRACTUAL
REQUIREMENTS AND BMTF CONTRACT DOCUMENTS LACK PERFORMANCE
METRICS

USAID’s two TAFA programs implemented between November 2009 and August 2013 resulted in some
successes. For example, documentation from USAID and its implementing partner show that the programs
successfully persuaded 10 customs facilities to reduce the number of steps in the customs process. According
to USAID officials, the global standard of customs processes for importing goods into nation states is 13 steps,
but, prior to the TAFA programs, ports in Afghanistan followed more than 30 steps to accomplish the same
tasks. TAFA was able to reduce the number of customs steps at these 10 facilities with varying degrees of
success, for example, TAFA recommended removing 18 of 33 steps at the Jalalabad inland customs depot, but
was only able to secure the elimination of 13 steps. According to TAFA implementing partner officials, reducing
the number of customs process steps is often met with resistance because each step allows for the associated
official to demand payment from an importer. Further, a BMTF official told us that the inclusion of so many
steps in the customs process is used as a tool to create more jobs at customs locations, which provides an
additional avenue for corruption. Although TAFA was unable to reduce the number of steps at all Afghan
customs locations to 13, the programs assisted the Afghan government in reducing the number of customs
process steps at nine inland customs depots and the Kabul International Airport—customs locations that
account for 98 percent of Afghanistan’s customs revenues—resulting in a reported annual cost savings to
importers and the Afghan government of $39 million.19
TAFA also helped the Afghan government implement the Border Management Model (BMM), which provides
guidelines for the roles and responsibilities of Afghan agencies operating at customs and border locations, at
five border crossing points across Afghanistan. For example, according to the TAFA final report, the TAFA
programs designed and developed the concept for the BMM, including drafting the relevant processes and
procedures to support the BMM, thereby creating a formal partnership between Afghanistan’s two leading
border agencies, the ACD and the Afghan Border Police. The BMM establishes the ACD as responsible for
cross-border trade and the Afghan Border Police as responsible for immigration and national security at the
borders, while encouraging information sharing between the two agencies to stem corruption, smuggling, and
other illegal activities. The implementation of the BMM should allow for more efficient operations at border
facilities because the precise duties of each Afghan agency are more clearly defined.
However, while we found that the TAFA programs made some achievements, we also determined that USAID’s
implementing partner only met two of the contractual performance requirements. The TAFA contracts included
six performance requirements—what USAID termed “progress indicators”—to gauge the implementing partner’s
progress towards achieving the programs’ goals of trade policy liberalization, customs reform, and trade
facilitation. These progress indicators, detailed in Table I, include, among others, reducing customs processing
times, holding a certain number of public events to discuss trade and business policy matters, and reducing
the number of documents/procedures required to import and export goods. According to the TAFA II contract,
“USAID will judge the implementer’s success or lack thereof under the contract based on whether or not the
tangible results…are achieved.”20




19To monetize cost savings, USAID calculated the time and expense related to each step of the customs process, then
summed the total cost of the eliminated steps. Examples of time costs include wages of customs inspectors and brokers,
examples of fees include processing fees paid to complete a customs process step.
20   USAID contract number AID-EEM-I-00-07-0008, signed August 15, 2012.




SIGAR 14-47-AR/Afghan Customs Revenue                                                                            Page 6
Table 1 - TAFA Contract Indicators and Results




Source: SIGAR analysis of TAFA Final Report, USAID contract documents, and supporting documentation

Of the six progress indicators, USAID and the implementing partner reported that the TAFA programs
successfully met or exceeded two targets in each of the program years. Targets were met or exceeded in
customs processing time and the number of public events held to discuss trade and business policy matters.
In the case of customs processing time, the implementing partner reported that it successfully reduced
processing time from an average of 8 days in 2009 to 3 hours and 27 minutes in 2013. However, USAID,
BMTF, ACD, and U.S. Forces-Afghanistan officials with responsibilities at several of these border crossing
points stated that the TAFA-reported reductions in processing times may be overstated and the actual time
required varied widely depending on location. USAID’s own documents on improved processing times are also
inconsistent. Where the final report on the TAFA program claims a reduction from 8 days to 3 hours and 27
minutes, the contract for TAFA’s follow-on ATAR program cites a reduction in customs processing times from 7
days to 1 day. We were unable to independently verify the actual average time required to process through
customs locations because the inaccessibility of many locations prevented us from visiting them in person and
security restrictions prevented us from performing the necessary observations at other sites.
For the remaining four progress indicators, the implementing partner either failed to meet its targets for at
least 1 year or failed to track the data necessary to determine whether targets were met. For example,
although the implementing partner met its targets in 2011 for reducing the number of documents required for
a trader to present to complete the customs process to import or export goods, it failed to meet its reduction
targets in 2012. For two requirements—change in public perception toward trade and the number of tariff
bands21 and average tariff level—USAID was unable to provide us with data to show whether targets had been


21   Tariff bands are tariff rates for specific categories of goods.




SIGAR 14-47-AR/Afghan Customs Revenue                                                                   Page 7
set and whether the implementing partner had achieved those targets. In the case of public perception toward
trade, the implementing partner did not conduct required annual assessments to measure the Afghan public’s
view of international trade. USAID officials told us that the requirement may have been determined to be
unnecessary because a negative perception of international trade was not a problem that the TAFA programs
needed to address. Regarding the number of tariff bands and average tariff levels, USAID was also unable to
provide us with data to show whether targets were established and whether the implementing partner
achieved the required results. In December 2013, USAID officials told us this requirement had been removed
as a performance indicator because it was not a valuable indicator of trade facilitation and that Afghanistan
already had a “reasonable” number of tariff bands. However, USAID did not provide us with evidence that
either of these requirements had been formally removed from the contract with the implementing partner.
In addition to the six progress indicators specifically cited in the TAFA contract documents, USAID had eight
overall goals—what it terms “expected results”—of the TAFA programs. These eight overall goals were to:
       strengthen the institutional capacity of the Afghan government to conclude international trade
        agreements,
       work with the Afghan government to implement a master plan to gain ascension to the World Trade
        Organization (WTO),
       streamline customs processes and procedures leading to a rise in Afghanistan’s ranking in the World
        Bank’s “Doing Business, Across Borders” index,
       improve transit of goods through key ports into Pakistan and neighboring countries,
       increase institutional capacity of the ACD to collect customs revenues and strengthen linkages
        between Kabul, Afghanistan’s provinces, and border crossings,
       improve transit of goods through Pakistan to reach market destinations,
       increase involvement and awareness of Afghanistan’s customs process by private sector individuals
        leading to increased Afghan exports, and
       increase understanding of the benefits of regional and bilateral trade agreements and WTO accession.
USAID officials told us that although there have been successes achieving some of these overall goals,
progress on others has been limited. For example, the conclusion of the Afghanistan Pakistan Transit Trade
Agreement and Afghanistan’s joining of the South Asian Free Trade Area demonstrated progress toward
strengthening the Afghan government’s ability to conclude international trade agreements. However, the
Afghan government still requires external assistance to independently negotiate these agreements, as
demonstrated by the assistance the TAFA programs have provided the Afghans in their efforts to join the WTO.
Moreover, the programs’ goals to improve transit through key ports into Pakistan and to improve the transit of
goods through Pakistan to reach market destinations has been difficult to achieve due to security concerns
and other impediments imposed by the Pakistani government. For example, trade with India is more expensive
than necessary because trucks delivering Afghan goods are not allowed to bring back Indian goods through
Pakistan. USAID informed us that the Afghan government, the TAFA implementing partner, and the U.S.
Embassy in Kabul continue to engage Pakistan concerning trade issues. Nevertheless, Pakistan continues to
shut down the border to Afghanistan at certain times and impose restrictions on trucks passing through border
crossings. Appendices II and III present additional information on the TAFA programs’ overall goals and the
results the programs have achieved.
TAFA was unable to achieve the overarching goals of increased customs revenue collection and a reduction in
Afghanistan’s ranking in the World Bank’s Trade Across Borders index due to a combination of factors. While
customs revenue collection did remain relatively stable from 2010 through 2012, customs collections declined
steeply in 2013. This decline may be due to a variety of factors, including changes to Afghan tariff law, the
regional macroeconomic environment, and the withdrawal of international forces. Similarly, the failure to
improve Afghanistan’s ranking in the World Bank’s Trade Across Borders index may have been due to
macroeconomic factors and regulatory factors beyond the TAFA program’s influence. With the end of the TAFA


SIGAR 14-47-AR/Afghan Customs Revenue                                                                     Page 8
II program in August 2013, USAID created a follow-on program to continue the work of a number of trade
activities begun under the TAFA programs. According to contract documents, the ATAR22 program “will continue
work on improving the environment for trade, thereby fostering increased investment, exports, cross-border
trade and transit, and market-based opportunities” for Afghanistan. For additional information on ATAR, see
appendix IV.


Measuring Success of BMTF Is Difficult Due to A Lack of Performance Metrics
CBP’s BMTF also appears to have had some successes. For example, the BMTF cleaned and upgraded the
Kabul Airport Customs Yard, which, according to CBP officials, resulted in increased efficiency at the Customs
Yard that reduced customs processing time from 10 to 2 days, which created a 37 percent increase in
customs revenue at that location. Afghan officials we spoke with at inland customs depots and at ACD
headquarters praised the BMTF for its efficiency, mentoring capabilities, and the equipment it provides. BMTF
reports show that BMTF mentors held more than 7,000 training sessions between 2010 and 2013, and
assisted the ACD in conducting more than 670 seizures during that same period. A DOD report states that
BMTF mentors at Kabul International Airport taught classes to improve airport security in customs authorities,
search techniques, targeting, money laundering, fraud, narcotics enforcement equipment, ethics, and
intelligence, among other topics.23 In addition to providing training and assisting in seizures of smuggled
goods, in 2010 and 2011, the BMTF completed a border needs assessment at 30 customs-related locations.
In conjunction with these assessments, BMTF provided a variety of equipment for the ACD, including non-
intrusive inspection devices for use in detecting smuggled materials, upgraded living facilities, and other
border facility infrastructure improvements. A DOD official told us that the BMTF operations at border crossing
points (BCP) have caused a positive impact on ACD operations at those BCPs. The DOD official specifically
cited improvements in operations at the BCP in Torkham due to the BMTF’s provision and operation of a non-
intrusive inspection scanner, which gave the BCP the ability to electronically scan cargo for illicit materials at
that location for the first time. This official also stated that the BMTF assisted in negotiating a settlement
between the ACD and the DOD of issues surrounding outstanding import documents for goods imported for the
use of the U.S. military.24
Nevertheless, we found that BMTF mentors operate under contracts and subcontracts that do not contain
performance metrics. Specifically, the contract documents for BMTF activities do not include a single metric
that defines specific, measurable goals for the BMTF mentors to achieve. The prime contract, issued by Army
Contracting Command to CACI, Inc. does not contain performance indicators—only standardized contractual
language without specific direction for the operation or expected outcomes of BMTF mentors or performance
metrics to measure the program’s success.
While the subcontracts between CACI, Inc., and Fedsys Inc., outline a number qualifications to be met and
tasks to be performed by the BMTF mentors, they do not provide for any performance metrics to assess mentor
activity, leaving performance of these duties up to the mentor, with minimal contractual oversight. Without
concrete performance metrics, oversight of the day-to-day and long term activities of an individual mentor is




22The ATAR implementing contract was awarded to Chemonics Inc. on November 7, 2013, as a time and materials
contract with a maximum value of $78 million and a 4 year period of performance.
23   U.S. Department of Defense, Progress Toward Security and Stability in Afghanistan, November 2013.
24SIGAR Alert 13-3, Afghan Government Levying Additional Fines, Fees, and Penalties that May Cost U.S. Government
Millions of Dollars, June 28, 2013, details the issues surrounding outstanding import documents for goods imported for the
use of the U.S. military.




SIGAR 14-47-AR/Afghan Customs Revenue                                                                              Page 9
difficult to achieve or measure in a meaningful way. See appendix V for a discussion of the mentor duties
described in the subcontract documents.


QUESTIONABLE CUSTOMS DATA, DRAWDOWN OF COALITION FORCES, AND
SYSTEMIC CORRUPTION WILL LIKELY HINDER DEVELOPMENT OF CUSTOMS
REVENUE AS A SUSTAINABLE SOURCE OF FUNDS

Questionable ACD Customs Data Make Accurate Determination of Revenues and
Other Trade Information Difficult
Our audit identified a number of potential issues that raise questions about the accuracy of the ACD customs
revenue data. While analyzing the customs data, we noted missing figures for various months at multiple
customs locations, as well as unusual trend lines and a number of questionable monthly figures. Regarding
trend lines at certain major border points, including Kabul and Kandahar, the data shows a peak-and-valley
trend, with customs revenue peaking every other month and dropping significantly during the off months. We
were unable to obtain explanations from ACD officials for this abruptness and lack of consistency. Some border
point data also show anomalous spikes—for example, an October 2011 jump in Kandahar customs revenues
200 percent over previous figures—that are not explained by external factors or expected seasonal fluctuation.
BMTF and USAID officials suggested to us that the spikes in customs revenues could be partially due to
holidays or weather events. However, while some of the monthly data seem to be consistent with contextual
events like attacks and sanctions, other data shed doubt on the overall reliability of the numbers. For example,
the data show normal customs revenues for Kandahar province and increasing revenues for Paktya province—
two provinces that inspect and collect customs duties on goods entering Afghanistan primarily from Pakistan—
during a period when the Pakistan border to Afghanistan was reportedly closed.
The ACD relies on the Automated System for Customs Data (ASYCUDA) to track customs data. Developed with
the assistance of the United Nations, ASYCUDA is an electronic system designed to reduce transit times,
encourage trade, and aid in tracking customs collection through the electronic collection of customs data.
According to the ACD, ASYCUDA expedites the processing of customs documents and reduces physical
interaction between customs officers and traders, reducing opportunities for corruption. Additionally, according
to the ACD, all customs declarations are automatically consolidated into the ACD central ASYCUDA system
database and subsequently used to produce accurate and timely trade statistics.
However, according to U.S. officials, there have been electrical and connectivity problems with the ASYCUDA
system at some of the border crossings, and the database is not a reliable source of information on goods
moving in and out of Afghanistan. Further, according to BMTF representatives, there is limited oversight of the
ASYCUDA system and customs officials may not be entering accurate information. USAID officials also stated
that issues with ASYCUDA are likely to increase because the ACD possesses limited institutional capacity to
operate the system and lacks the training capabilities to sustain the ASYCUDA system as the transition
continues.
In an effort to increase customs data reliability, the TAFA programs worked with Afghanistan’s Tariff Statistics
Research Unit to establish a sound method for the collection, validation, analysis, and reporting of national
trade statistics related to import, export, and transit. According to the TAFA final report, as a result of this work,
statistical discrepancies in trade data produced by the Afghan government dropped from more than 75
percent to less than 30 percent over the life of the TAFA programs. While a 30 percent discrepancy in trade
statistics is a significant improvement from 75 percent, the data remain unreliable.
Without reliable data, it is difficult to assess the true quantity of goods transiting Afghanistan, observe patterns
within international trade, and determine the correct level of customs revenue to be collected. However, the



SIGAR 14-47-AR/Afghan Customs Revenue                                                                         Page 10
contract document for USAID’s new ATAR program does not hold the contractor accountable for addressing
this problem. Specifically, while the ATAR contract includes “aid in developing and managing sustainable
information technology systems that meet international standards, including automation of business
processes through the Automated System for Customs Data (ASYCUDA) system, tracking of customs revenue
collection, and statistical data collection and reporting” as an “illustrative implementation activity,” it does not
require continued work with the Tariff Statistics Research Unit or include a reduction in statistical errors as a
performance indicator.


Drawdown of Coalition Forces Will Restrict Future BMTF and ATAR Operations and
May Limit Program Effectiveness
According to an official with the BMTF, the drawdown of coalition forces and the closure of forward operating
bases throughout Afghanistan have already begun to restrict U.S. government activities—such as BMTF
mentoring activities—in those areas.25 According to U.S. Embassy officials, to address the challenges
associated with Afghanistan’s borders, the U.S. Embassy in Kabul created the Borders Working Group—a
permanent working group within the Embassy’s Coordination Directorate to coordinate interagency civilian and
military efforts involving customs and border issues in Afghanistan.
A July 2013 memo from the U.S. Embassy in Kabul to the State Department headquarters outlined a plan for
BMTF operations for the end of 2013, and continuing into 2014. This plan called for the gradual reduction in
BMTF mentors beginning in 2013, and for positions to be eliminated as the military withdrew or BMTF projects
were completed. According to CBP personnel, this plan also called for the reduction of DHS personnel at the
Embassy from 26 to 8 and would have hindered CBP’s oversight capabilities of BMTF operations.
Following resistance from key stakeholders, including the CBP, in December 2013, the Borders Working Group
and CBP, in close coordination with interagency partners, revised the plan for BMTF operations in fiscal years
2014 and 2015. The revised drawdown plan calls for the continuation of BMTF mentor operations at key BCPs
for as long as military operations are able to support mentor activities. Further, the revised plan allows for
continued BMTF operations at Afghanistan’s major airports, as well as the ISAF Regional Commands, and
provides for a focus on high level advising by BMTF mentors, allowing operations at Afghan border agency
headquarters. While the revised drawdown plan keeps the number of DHS personnel stationed at the Embassy
at eight, a CBP official stated that it was an acceptable option that had been developed jointly with other
border stakeholders.26
As acknowledged in the plan, the future of BMTF operations, as well as their efficacy, will depend on the final
U.S. troop numbers and enduring locations in Afghanistan following the drawdown, which is already underway.
As the coalition military forces continue to withdraw, the BMTF’s access to border crossings and inland
customs depots, and its apparent positive effect on process and procedural enforcement, will likely be in
jeopardy.
In addition to complications arising from the decrease in personnel at the embassy, recent security concerns at
key locations expected to have an enduring BMTF presence have complicated the BMTF’s ability to mentor at
customs locations outside of Kabul. Numerous security incidents and concerns over the course of this audit
caused BMTF mentors to withdraw from key customs locations. In November 2013, BMTF was not providing



25 SIGAR 14-4-SP, Oversight Access Inquiry Letter to Department of Defense, Department of State and U.S. Agency for
International Development, October 10, 2013.
26 Because of the sensitive nature of CBP and BMTF personnel locations and other information that may impact security,

this report only discusses the general themes, rather than the specifics, of the 2014-2015 plan.




SIGAR 14-47-AR/Afghan Customs Revenue                                                                           Page 11
mentoring at any border crossings and was only conducting mentoring missions at the Kabul and Kandahar
airports.27 According to Borders Working Group officials, border crossings needed for the retrograde of U.S.
military equipment from Afghanistan are the most important crossings; however, as a result of security
concerns, the BMTF has had its access interrupted at these pivotal border crossings.
ATAR will likely face security-related challenges similar to those of the BMTF over the planned 4-year life of the
program. ATAR contract documents note that the program “will occur during the transition of Afghanistan from
NATO led counter-insurgency to an Afghan led transformation” and that “the implications of this transition are
that military force-protection for project support will be considerably decreased, if not entirely absent.”28 This
may result in the alteration of ATAR initiatives as security realities on the ground overcome planned program
activities. As coalition military support in Afghanistan diminishes, BMTF mentors and ATAR programs may have
to be pulled back from less secure customs locations and focus on sites within secure areas. This withdrawal
will likely result in customs locations receiving varying levels of mentoring, support, and training, allowing
opportunities for corruption to go unchecked at customs locations that do not have BMTF mentors or ATAR
program support.


Corruption Continues to Put Customs Revenues at Risk
Corruption has been a major obstacle to customs reform, as well as a source of lost customs revenue. In
2008, the Afghanistan National Development Strategy outlined the goals of the Afghan government and stated
that by the end of 2013, corruption at all levels of government, but especially concerning customs, would be
significantly reduced. To reduce that corruption, the strategy proposed streamlining and automating customs
processing procedures.
Contract documents from both TAFA and ATAR emphasize the importance of anti-corruption efforts and
highlight specific anti-corruption measures promoted under each program, including streamlined customs
procedures, events held to educate businesses about customs regulations, and increased automation in
customs processes.
Two major innovations in the automation of customs processes—a risk management system and an electronic
payment system—were started under TAFA. The risk management system, created to facilitate the targeted
inspection of cargo based on the type of cargo being carried, broker behavior, and other intelligence sources is
designed to optimize the use of limited security resources and decrease transit times. As early as 2010, TAFA
worked with the ACD to establish a risk management system and had implemented this approach at one
customs location by June 30, 2012. However, while the ACD accepted the risk management system in
principle, it reportedly considered it too difficult and chose to adopt a scaled down approach, with the
successive implementation of specific parts of the risk management system over a period of years. Although
the risk management system is highlighted in the TAFA and ATAR contract documents as an important anti-
corruption measure, we found that the ATAR contract does not require the implementing partner to meet
annual targets for implementation of the system.
Like the risk management system, progress in implementing an electronic payment system for customs duties
has been slow. Currently, customs fees in Afghanistan are processed in cash at the inland customs depots,
where the imported cargo is inspected and assessed customs duties. This system can lead to customs brokers



27BMTF has been active at the Kabul inland customs depot, Kabul Airport, Torkham, and the provinces of Mazar-e-Sharif,
Herat, Kandahar, Jalalabad, Andkhoi, and Kunduz. As of November 2013, BMTF was only providing mentoring at the Kabul
and Kandahar airports, and was providing oversight of equipment at the Weesh border crossing point in Kandahar.
28   USAID contract number AID-OAA-I-12-0035, signed November 7, 2013.




SIGAR 14-47-AR/Afghan Customs Revenue                                                                         Page 12
traveling long distances with large quantities of cash to pay customs fees assessed on imported goods.29 The
current cash-based payment system is inefficient, leaves customs brokers vulnerable to theft, and increases
the opportunities for corruption to occur within the customs process.
According to USAID and TAFA program officials, at the conclusion of the TAFA programs in August 2013, major
customs brokers at the Kabul International Airport—the planned pilot location—had been briefed on the
proposed electronic payment system, and the ACD had the equipment and technical knowledge needed to
launch it. However, according to USAID and implementing partner officials, the ACD had not yet implemented
the electronic payment program. USAID officials said the implementation of the electronic payment system was
delayed, in part, because the TAFA programs expired and the associated pressure on the Afghan government
to implement the system was temporarily relieved. USAID officials also stated that implementation was delayed
due to a proposal by an Afghan official that would allow only one Afghan bank to process all the electronic
customs payments. This would have given the selected bank a monopoly on this revenue stream and a
significant, and improper, advantage over its competitors.
Although implementation of the electronic payment system is one of the deliverables required by the ATAR
contract, and an expected result of the ATAR program is for the implementing partner to increase the amount
of customs revenue collected electronically from zero (currently) to 75 percent by the end of the 4-year
performance period, the ATAR contract does not contain annual targets for the implementing partner to meet
in achieving this goal, as it does for other contract requirements, limiting USAID’s ability to assess the
implementing partner’s progress in this area.
The BMTF attempted to reduce corruption through mentoring at customs locations and the provision of
advanced equipment and training classes focused on professionalizing ACD officers. While some progress was
made, pilferage, corruption, and patronage networks continue to be a concern within both the ACD and the
border police in Afghanistan.30 For example, DOD found that Afghan officials at border crossing points are
“particularly vulnerable to criminal [or corrupt] influence…because of the lucrative financial opportunities
involved in cross-border smuggling, especially from the collection of illegal taxes and the theft of state customs
revenues at border crossing points and airports.”31 In addition, DOD found that “most data indicates that
corruption is still widespread and that patronage networks are one of the main ways to get promoted in the
ABP [Afghan Border Police].”32 BMTF and CBP officials stated that when there is a U.S. presence at the border,
the BMTF mentors are able to provide additional oversight and advisory services to Afghan officials, which
helps to stem corrupt activities. These same officials noted that when BMTF officials are not physically present
at border crossings, corrupt and criminal activities often resume.
Similarly, according to USAID, CBP, and TAFA implementing partner officials, corruption impacts all levels of the
customs process and is the biggest problem affecting Afghan customs processes and revenues. TAFA
implementing partner officials stated that the levels of corruption are such that only highly visible and rapid
prosecutions for corrupt activities will have an effect on the systemic corruption in the customs process. The
scale and impact of corruption in Afghanistan’s customs process is difficult to quantify. Nevertheless, USAID




29 Customs brokers are private individuals, partnerships, associations or corporations who assist importers and exporters
in meeting requirements governing imports and exports. Brokers submit necessary information and appropriate payments
on behalf of their clients and charge them a fee for this service.
30 Patronage networks exist where services are provided in return for favors. For example, according to U.S. officials,

Afghans will often pay for their positions within customs. Patronage networks are often linked to corruption. Pilferage is the
theft of part of the contents of a package.
31   U.S. Department of Defense, Progress Toward Security and Stability in Afghanistan, July 2013.
32   U.S. Department of Defense, Progress Toward Security and Stability in Afghanistan, November 2013.




SIGAR 14-47-AR/Afghan Customs Revenue                                                                                 Page 13
officials hypothesize that eliminating or significantly stemming corruption in the customs process could
potentially double the customs revenues remitted to the central government.

Pilferage and criminal and patronage networks also affect the efficient and effective assessment and
collection of Afghan customs revenues. According to USAID and BMTF officials, goods transiting from the
border to the inland customs depots may be, and often are, stolen and/or misrepresented on customs forms.
For example, BMTF officials noted that wheat and rice are often smuggled and misrepresented to customs
officials when entering Afghanistan. Photo 2 shows a commercial vehicle moving goods through the border
crossing point in Weesh along the border with Pakistan.
The BMTF also noted that criminal networks use intimidation to smuggle these commodities, resulting in the
estimated loss of approximately $25 million annually at a single customs location.33 In a separate estimate,
TAFA implementing partner officials stated that approximately $60 million is lost annually to commercial
smuggling. BMTF advisers also report that efforts to combat criminal and patronage networks are being
undercut by kidnapping and intimidation of Afghan employees for listening to the BMTF advisers and properly
collecting customs duties.
U.S. officials have stated that, while the current
ACD leadership appears to be a positive influence        Photo 2 - Commercial Vehicle at the Weesh-Chaman
on reducing corruption within Afghan customs, the        Border Crossing Point
department remains “personality-driven” and
permanent cultural changes are elusive. Moreover,
U.S. officials have stated that although the current
ACD leadership is supportive of customs reforms,
if ACD leadership changes, these reforms could be
in jeopardy. USAID, TAFA, CBP, and BMTF officials
all stated that reducing corruption within
Afghanistan may be an endeavor that takes a
generation to succeed. In fact, ATAR’s contract
documents note that “the younger generation of
Afghans holds the key to the sustainability of a
market-oriented economy and a democratic
                                                         Source: SIGAR, August 26, 2013
political system.”
Despite the $83.8 million USAID already spent on
the TAFA programs, the ATAR contract documents note that Afghanistan remains poorly positioned to develop a
self-sustaining economy because of corruption, mismanagement, and continuing instability along its borders.
In addition, USAID and TAFA officials told us that without continued international support and assistance,
programs such as the electronic payment system are unlikely to move forward. CBP, USAID, and TAFA program
officials all noted that without U.S. pressure, decisions to reform processes within the ACD are often delayed or
halted due to cultural and institutional roadblocks within the Afghan government.
ATAR contract documents further state that, “A major predictor of sustainability is [Afghanistan’s] political will
to implement reforms and combat corruption.” The ATAR contract goes on to call for “increased automation
and standardization of customs processes to expedite trade and narrow the space for corruption” as an




33   Approximately 1.377 billion Afghanis.




SIGAR 14-47-AR/Afghan Customs Revenue                                                                       Page 14
anticipated outcome and decreasing revenue leakages due to undervaluation of cargo as an expected result of
the program.34


Customs Revenues Sustainability Remains Unclear
The future of customs revenues as a stable source of income for the Afghan government remains unclear. The
TAFA and BMTF programs achieved some successes in reforming and developing Afghan customs law, policies,
and procedures; but, larger issues surrounding questionable customs data, the withdrawal of international
forces, and corruption remain. The ACD’s ability to create and disseminate accurate and reliable customs data
will continue to grow in importance as international aid is reduced and Afghanistan is forced to rely upon
domestic revenue collections to sustain its government. Without accurate customs data, the ACD will be
unable to reliably collect customs revenues and ensure they reach the Afghan treasury. The ACD will also be
unable to reliably track international trade entering and leaving the country.
According to Afghanistan’s national budget reports, customs revenues remained relatively stable between
2010 and 2012, but experienced a sharp decline in 2013. This reduction coincides with the drawdown of
international forces and demonstrates the importance of trade related to the international presence to
customs revenue collection. As international forces continue to withdraw, and international aid is reduced,
customs revenues may decline as fewer customs fees are paid by those forces and fewer imports are
demanded due to reduced economic activity within Afghanistan.35
The TAFA programs’ success in beginning to integrate Afghanistan into the regional economies may reduce the
impact of the decline in international assistance on Afghanistan’s economy. According to DOD, increased trade
and regional economic integration are important for sustaining Afghanistan’s economic development past
2014. According to a 2013 DOD report, domestic Afghan revenue generation is increasing and Afghanistan
may be able to reach its International Monetary Fund-mandated revenue generation target of $2.04 billion36
for 2013,37 despite the continued reduction in international assistance and military presence. Afghanistan’s
continued integration into regional and global economies could increase trade across its borders and customs
revenue collections.
However, according to ATAR contract documents, Afghanistan remains “…ill positioned to transition to a self-
sustaining economy without painful readjustments. Corruption, mismanagement, and continuing instability in
the border regions have made the trade regime fractured and inefficient.” As such, ATAR aims, in part, “to
build [Afghanistan’s] capacity to generate revenue, through both tax and customs revenues mechanisms, in a
manner that facilitates sustainable economic growth and trade and reduces [Afghanistan’s] dependence on
donor funding.”38 As the military transition in 2014 continues, reforming and enhancing the Afghan
government’s process and capacity to assess and collect customs revenues remain primary objectives of the
U.S. government.




34   USAID contract number AID-OAA-I-12-0035, signed November 7, 2013.
35 For additional discussion of customs process fees paid by the U.S. government on exempt goods, see SIGAR Alert 13-3,

Afghan Government Levying Additional Fines, Fees, and Penalties that May Cost U.S. Government Millions of Dollars, June
28, 2013.
36   114 billion Afghanis.
37   U.S. Department of Defense, Progress Toward Security and Stability in Afghanistan, November 2013.
38   U.S. Department of Defense, Progress Toward Security and Stability in Afghanistan, November 2013.




SIGAR 14-47-AR/Afghan Customs Revenue                                                                          Page 15
CONCLUSION

Customs revenue is a primary component of Afghanistan’s domestic revenue and is essential for the long-term
sustainability of the Afghan government. Since 2009, the United States has allocated at least $198 million
toward efforts to assist in developing the capacity of the Afghan government to assess and collect customs
revenue. While these efforts had some positive effects, other factors have tempered these successes. For
example, the TAFA programs failed to meet all of their benchmarks and were unable to implement the
electronic payment system or fully implement the risk management system, and a lack of clear performance
metrics and unreliable data make it difficult to assess the impact of development and reform efforts. Further,
economic uncertainty surrounding the withdrawal of international forces and the elections in 2014 will have an
impact on custom revenue collections. Corruption is the biggest factor that could undermine the success of
U.S. efforts to develop the capacity of the Afghan government to assess and collect customs revenues.
Regardless of the amount of funds expended or the number of programs and initiatives implemented, revenue
collection at Afghanistan’s borders will continue to be subject to graft and pilferage unless the government is
fully committed to anti-corruption measures. While the amount of corruption was somewhat lowered by the
presence of U.S. personnel working at the border and mentoring directly with ACD personnel, it may rise as U.S.
forces withdraw from the country and financial assistance decreases in the near future. Gains made over the
past few years may be irrevocably lost.


RECOMMENDATIONS

To help CBP assess if the BMTF program is achieving its intended outcomes, we recommend that the CBP
Commissioner instruct the CBP attaché in Afghanistan to:
    1. Develop clear performance metrics for BMTF mentor operations and submit such metrics to
       DOD/CENTCOM for incorporation into any future BMTF contracts or task orders.
To ensure that USAID’s goals in reforming Afghanistan’s customs collection capabilities are met and contribute
to the fiscal sustainability of the Afghan government, we recommend that the USAID Administrator instruct the
USAID Mission Director for Afghanistan to:
    2. Direct the ATAR implementing partner to continue to work with Afghanistan’s Tariffs Statistics Unit to
       reduce discrepancies in customs data and make the reduction in statistical discrepancies a
       requirement of the contract for the ATAR program.

    3. Ensure that annual targets for implementation of anti-corruption measures, such as the electronic
       payment system, are included as performance requirements in the ATAR program contract.




SIGAR 14-47-AR/Afghan Customs Revenue                                                                  Page 16
AGENCY COMMENTS

We provided a draft of this report to CBP, USAID, and CENTCOM for their review and comment. We received
written comments on a draft of this report from CBP and USAID, which are reproduced in appendices VI and VII
respectively. CENTCOM provided technical comments, which we incorporated into our report, as appropriate.
In its comments, CBP concurred with our recommendation that the CBP attaché in Afghanistan develop clear
performance metrics for BMTF mentor operations and submit such metrics to DOD for incorporation into any
future BMTF contracts or task orders. CBP stated that it would complete the implementation of the
recommendation by September 30, 2014. CBP also provided technical comments, which we incorporated into
our report, as appropriate.
In its comments, USAID stated that it agreed with the findings in the audit report and partially concurred with
the two recommendations directed to it. Regarding our recommendation that USAID direct the ATAR
implementing partner to continue working with Afghanistan’s Tariffs Statistics Unit to reduce discrepancies in
customs data and make the reduction in statistical discrepancies a contractual requirement, USAID stated
that, while it considered the recommendation, it “finds it impossible to do so because the discrepancies in
customs data are often driven by factors outside the control of the project, which does not manage the data.”
However, USAID stated that it will issue a letter to the implementing partner directing it to continue working to
decrease discrepancies between the Central Statistics Office and the ACD. In addition, USAID stated that it set
a target for a reduction in the discrepancy between Central Statistics Office and ACD statistics to 20 percent
for 2014, down from 30 percent in 2013. While we are encouraged that USAID will write a letter to the
implementing partner directing it to continue to work with the ACD to decrease discrepancies in customs data,
we continue to believe that contractually requiring the implementing partner to continue these efforts is an
important step in working to reduce the discrepancies.
Regarding our recommendation that the agency include annual targets for anti-corruption measures, such as
the implementation of the electronic payment system, in ATAR’s contract language, USAID stated that it cannot
include anti-corruption system performance requirements in the contract because the ACD is ultimately
responsible for institutionalizing these systems, not the ATAR implementing partner. However, USAID also
stated that timelines for the development of systems that facilitate trade and curb corruption at the ACD, such
as institutionalizing the BMM, implementing the risk management system, and implementing the electronic
payment system, are included in the ATAR annual work plans. Given that USAID officials stated they included
these key anti-corruption steps into the ATAR annual work plans, it is unclear why associated targets cannot
accompany the institutionalization and implementation of these projects. Finally, USAID stated that it will issue
a letter by May 2014, instructing the implementing partner to continue to work toward implementing anti-
corruption measures. While we welcome USAID’s decision to write a letter to the implementing partner
directing it to continue to work with the ACD to implement anti-corruption measures, we maintain that including
annual targets for the implementation of anti-corruption efforts in the ATAR program contract is needed to
ensure the adoption of critical anti-corruption measures, such as the electronic payment system.




SIGAR 14-47-AR/Afghan Customs Revenue                                                                     Page 17
APPENDIX I - SCOPE AND METHODOLOGY

This audit focused on U.S. efforts to develop and reform Afghanistan’s ability to assess and collect customs
tariffs. Specifically, our objectives were to (1) determine the extent to which the U.S. Agency for International
Development (USAID) and Department of Homeland Security’s Customs and Border Protection (CBP) programs
that were designed to reform Afghanistan’s customs laws, policies, and procedures, from January 1, 2010, to
August 31, 2013, achieved their intended outcomes, and (2) examine challenges to creating a stable and
lasting source of customs revenue for Afghanistan.

Our methodology to determine the extent to which efforts to reform Afghanistan’s customs laws, policies, and
procedures achieved intended outcomes included reviewing the relevant Afghan laws, policies, and procedures
related to the assessment and collection of customs revenues, as well as contract documents and operational
histories of the USAID Trade Accession and Facilitation for Afghanistan (TAFA) and Afghanistan Trade and
Revenue (ATAR) programs and of the Border Management Task Force (BMTF). We reviewed contract
documents and the operational history of the TAFA program, as provided by USAID officials managing the TAFA
contracts and by the TAFA implementing partner. We reviewed contract documents related to USAID’s ATAR
program from USAID officials involved in awarding and overseeing the execution of the contract; we also
reviewed contract documents and the operational history of the BMTF mentors, as provided by the Army
Acquisition Command, the CBP, and the BMTF contractor. In addition to the document review, we conducted
interviews with Department of State, USAID, CBP, International Security Assistance Force (ISAF), implementing
partner, the BMTF contractor, and Afghan Customs Department (ACD) officials familiar with the U.S. programs
and visited customs locations throughout Afghanistan. Finally, we reviewed Afghanistan’s customs laws,
processes, and procedures as codified for reforms and developments attributable to the efforts of the U.S.
funded programs.

To examine the challenges to creating a stable and lasting source of customs revenue for Afghanistan, we
reviewed Afghanistan’s monthly customs revenue data from January 2010 through November 2013, as
provided by the ACD through the CBP. We conducted interviews with Department of State, USAID, CBP, ISAF,
implementing partner, contractor, and ACD officials familiar with Afghanistan’s customs capabilities.
Additionally, we utilized computer processed data showing monthly customs figures received from the ACD and
concluded that the data may not be reliable. While this audit did not specifically review the internal controls of
the Automated System for Customs Data (ASYCUDA) system, we did find a number of possible internal control
weaknesses related to data input.
During the course of our audit, we visited a number of locations within Afghanistan including Kabul, Mazar-e-
Sharif, Hairatan, Spin Boldak, and Weesh. We were unable to accomplish our planned visits to Torkham Gate
and Herat due to security concerns; however, we were able to successfully communicate with key personnel
familiar with Afghan customs issues from Herat.
We conducted our audit work at various locations throughout Afghanistan, and Washington, D.C., from July
2013 to February 2014, and reviewed documents dated from September 2004 through December 2013, in
accordance with generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives. This audit was performed by SIGAR (code
083A), under the authority of Public Law No. 110-181, as amended, and the Inspector General Act of 1978, as
amended.




SIGAR 14-47-AR/Afghan Customs Revenue                                                                     Page 18
APPENDIX II - ANTICIPATED RESULTS OF TRADE ACCESSION AND FACILITATION
FOR AFGHANISTAN AND U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT
RESPONSE

Table 2 identifies the eight anticipated results contained in the Trade Accession and Facilitation for
Afghanistan (TAFA) contract documents, as well as information the U.S. Agency for International Development
(USAID) provided us about the status of each indicator.

Table 2 - USAID’s Contractually Identified Anticipated Results for the TAFA Program and Completion Status
 Number                Anticipated Result                                         USAID Response

1           Strengthened institutional capacity of         Progress has been made in strengthening staff capacity and
            government and affiliated organizations to     organizational capacity at the Ministry of Commerce and
            effectively and properly implement trade       Industry, but capacity building is a longer term process.
            policy reform, prepare negotiation
            documents, and negotiate regional terms
            of trade—specifically starting with
            implementation of the Afghanistan
            Pakistan Transit Trade Agreement (APTTA)
            between Afghanistan and Pakistan and
            cross border trade agreements with
            Turkmenistan, Tajikistan, and the Kyrgyz
            Republic.

2           Implementation by the Afghan government         During TAFA and TAFA II, developing and following a master
            of Afghanistan of a World Trade                plan was key to achieve the efficiency with which the different
            Organization (WTO) Accession Master Plan       activities have moved forward in order to comply with WTO
            to move forward with the WTO accession         rules.
            process.

3           Streamlined processes and reduced costs        Trading across borders improved 2 ranks in 2012 to 178. This
            for importing and exporting goods,             is a significant accomplishment, especially if compared to the
            translating into an improved ranking on the    other 9 topics included in the “Doing Business Indicator”
            trading across borders indicator of the        many of which actually went down or stayed the same.
            World Bank’s “Doing Business” survey—at        Rankings of countries around Afghanistan: Tajikistan–184;
            the least, Afghanistan should improve to       Turkmenistan–no data; Uzbekistan–185; Kyrgyzstan–174;
            come in line with at least the regional        Kazakhstan–182; Pakistan–85 (Although Pakistan has been
            average (if not exceed) for the time, costs,   a difficult trade partner for Afghanistan).
            and number of documents required for           Average (excluding Afghanistan): 162. Afghanistan compares
            trading across borders.                        favorably to the countries to the north. Still, of course, there is
                                                           vast room for improvement.

4           Specifically, improved transit of goods        Transit of goods through Pakistan continues to be a challenge.
            through Pakistan to reach destination          Despite signing a trade and transit agreement (APTTA),
            markets through joint cooperation with         Pakistan continues to insist in redundant security measures
            Pakistan at key border crossings such as       and insurances that are not part of the agreement, and
            Torkham Gate, Chaman, and other key            containers have been stranded for one or another reason in
            ports of entry; and cooperation with other     Karachi, once for several months. Transit of goods to India is
            neighboring countries along Afghanistan’s      also a challenge since trucks are not allowed to bring back
            border.                                        Indian goods and therefore they are empty coming back,
                                                           making transportation more expensive than it should. The
                                                           Afghan government with TAFA and State Department support


SIGAR 14-47-AR/Afghan Customs Revenue                                                                                Page 19
                                                             continues engaging Pakistan on APTTA. There are signs that
                                                             the new Pakistani government is more open to work out trade
                                                             issues plus Pakistan is interested in reaching the Central Asia
                                                             market. USAID will continue support of APTTA under the
                                                             Afghanistan Trade and Revenue (ATAR) program.

5            Increase institutional capacity of the          TAFA and TAFA II developed and supported an Afghan
             Afghanistan Customs Department (ACD) to         Customs Department (ACD) structure reorganization (which,
             carry out essential Customs administration      among other things, lowered the number of staff at ACD and
             functions and further revenue generation;       which is in the latest stages of completion); defined a system
             with strengthened linkages between the          for pay scales, the Salary Improvement Program (not
             capital, regions, and border crossing           implemented due to issues with the Civil Service
             points.                                         Commission); and developed work load indicators for staffing
                                                             needs, developed a training assessment matrix and carried
                                                             out numerous trainings for ACD personnel, at ACD
                                                             headquarters and in the field.

6            Improved transit of goods through Pakistan      See answer to anticipated result Number 4.
             to reach destination markets.

7            Increased awareness and involvement of          TAFA and TAFA II provided extensive training on trade,
             private sector stakeholders at the central,     customs, advantages of WTO membership, in Kabul and the
             provincial and local levels in the process of   main cities around the country. The projects also supported
             trade-related strategy and policy               the creation of public-private coordination groups like the
             formulation and in accessing and taking         Customs and Trade Consultative Council (CTCC) at ACD, and
             advantage of new opportunities afforded         the WTO consultative group at the Ministry of Commerce and
             for trade-related business development.         Industries. During TAFA I, several public campaigns were
             This translates into increasing                 developed to educate the public and different sectors in the
             Afghanistan’s overall trade export volumes      government (the parliamentarians, for example) on WTO and
             each year.                                      regional and bilateral trade agreements.

8            Increased understanding of the benefits of      See answer to anticipated result Number 7.
             regional and bilateral trade agreements
             and WTO accession and identification of
             WTO process milestones by political,
             public, and private sector stakeholders.

Source: TAFA Contract documents and USAID responses to SIGAR inquiry




SIGAR 14-47-AR/Afghan Customs Revenue                                                                               Page 20
APPENDIX III - TRADE ACCESSION AND FACILITATION FOR AFGHANISTAN PROGRAM INDICATORS

Table 3 idenitifies the 56 program indicators, including targets and results, where appropriate, tracked by the U.S. Agency for International Development’s
(USAID’s) Trade Accession and Facilitation for Afghanistan (TAFA) implementing partner throughout the life of the program.39
Table 3 - TAFA Program Indicators
                                      Baseline              2010                    2011                        2012                      2013
      Indicator        Type of                                                                                                                                           Definition
                      Indicator    Year     Data      Target    Result        Target    Result        Target       Result        Target       Result

Project Objectives: Improved Trade for Afghanistan, Fostering Increased Investment, Export, and Market-Based Employment Opportunities
Growth in trade       TAFA I/     2009     $5.7      Tracking   $7.04        Tracking   $7.8         Tracking     $7.6         Tracking     $1.7 billion   Trade volume is defined as the licit
volume                TAFA II              billion   only       billion in   only       billion in   only         billion in   only         in first       trade value of goods and services
                                                                1389                    1390                      1391                      quarter        brought into the country (import) and
                                                                                                                                            1392           the value of goods and services sold in
                                                                                                                                                           the foreign country or countries
                                                                                                                                                           (export).
                                                                                                                                                           Calculation: Total value of exports +
                                                                                                                                                           total value of imports in a year.

Value of exports      TAFA I/     2009     $316      Tracking   $388         Tracking   $375         Tracking     $318.1       Tracking     $76            Value of exports here refers to the total
                      TAFA II              million   only       million in   only       million      only         million in   only         million in     value of Afghan licit goods and services
                                                                1389                    in 1390                   1391                      first          sold in the foreign country or countries.
                                                                                                                                            quarter
                                                                                                                                            1392

Value of imports      TAFA I/     2009     $5.63     Tracking   $6.8         Tracking   $7.4         Tracking     $7.25        Tracking     $1.6 billion   Value of imports here refers to the total
                      TAFA II              billion   only       billion in   only       billion in   only         billion in   only         in first       value of goods or services brought into
                                                                1389                    1390                      1391                      quarter        Afghanistan from other countries.
                                                                                                                                            1392




39   TAFA Final Report, August 31, 2013.




SIGAR 14-47-AR/Afghan Customs Revenue                                                                                  Page 21
                                     Baseline                   2010                2011                  2012                       2013
    Indicator          Type of                                                                                                                                     Definition
                      Indicator   Year         Data     Target     Result     Target   Result    Target      Result         Target      Result

Change in World       TAFA I/     2009     183         Tracking    183        179      179      177         178        177             178           The annual World Bank Doing Business
Bank’s Doing          TAFA II                          only                                                                                          report presents quantitative indicators
Business Trade                                                                                                                                       on business regulations and protection
Across Borders                                                                                                                                       of property rights that can be
                                                                                                                                                     compared across 185 economies over
                                                                                                                                                     time.


Intermediate Result (IR) 1: Trade Policy Liberalized

Sub-IR1.1: Improved Government Interagency Coordination to Advance and Implement Consistent Trade and Tariff Policy
Number of             TAFA I/     2009     0           4           7          15       16       10          6              10          17            Negotiating and implementing
consultative          TAFA II                                                                                                                        agreements requires intense
processes with                                                                                                                                       coordination and cooperation among
private sector as a                                                                                                                                  ministries and state bodies, as well as
result of U.S.                                                                                                                                       with private sector and civil society
government                                                                                                                                           stakeholders. Working groups
assistance                                                                                                                                           (involving public and private sector
                                                                                                                                                     stakeholders) for consultations on
                                                                                                                                                     developing trade policies, negotiations
                                                                                                                                                     strategies, streamlining trade
                                                                                                                                                     procedures, and on preparing draft
                                                                                                                                                     legislation were captured under this
                                                                                                                                                     indicator.

Reduction in          TAFA I/     2009     60%         Decrease    50%        0        0        10%         3%             10%         Data not      It is crucial to have reliable trade-
discrepancy           TAFA II              import;     10%         import                       export;     export;        export;     provided      related data for policy and planning.
between the                                80%         import      and 60%                      10%         15%            10%         by Central    TAFA supported the ACD and CSO to
Central Statistics                         export      and         export                       import      import         import      Statistics    harmonize trade-related data between
Office and the                                         decrease    meet the                                                            Office in     the two organizations. When TAFA
Afghan Customs                                         20%         target                                                              two           started, the discrepancy between the
Department (ACD)                                       export                                                                          quarters of   CSO and the ACD on trade-related data
on trade statistics                                                                                                                    2013          was 60% for imports and 80% for
                                                                                                                                                     exports.




SIGAR 14-47-AR/Afghan Customs Revenue                                                                            Page 22
                                         Baseline            2010             2011                 2012                       2013
    Indicator           Type of                                                                                                                             Definition
                       Indicator   Year          Data   Target   Result   Target   Result   Target      Result         Target      Result

Preparation time of    TAFA II     N/A       0          0        0        0        0        2 months   2.5             2 months   1 month   Preparation of negotiation documents,
replies to World                                                                                       months                               particularly replies to questions by
Trade Organization                                                                                                                          WTO members, is a major challenge. It
(WTO) questions                                                                                                                             requires significant coordination and
decreased                                                                                                                                   cooperation among state bodies. This
                                                                                                                                            indicator reflects progress made
                                                                                                                                            among ministries and state bodies in
                                                                                                                                            resolving issues more quickly and in
                                                                                                                                            responding more rapidly to WTO
                                                                                                                                            questions through increased
                                                                                                                                            coordination and cooperation in
                                                                                                                                            formulating trade policies.

Trade-related          TAFA II     N/A       0          0        0        0        0        Yes        Yes             Yes        Yes       Most trade procedures (including
procedures and                                                                                                                              required documents) and fees are not
fees by ministries                                                                                                                          publicly available for traders. A
and state bodies                                                                                                                            comprehensive inventory published on
available online on                                                                                                                         a single website will ensure greater
a single website for                                                                                                                        transparency and reduce the cost of
traders                                                                                                                                     trade. This initial step is an indication
                                                                                                                                            that ministries are willing to cooperate
                                                                                                                                            on publicly sharing information on the
                                                                                                                                            implementation of trade policy.

Tariff-setting         TAFA II     N/A       0          0        0        0        0        Yes        Yes             Yes        Yes       The Minister of Finance is in charge of
mechanism                                                                                                                                   setting tariff rates with no consultation
involving key                                                                                                                               with stakeholders. It is critical to
stakeholders                                                                                                                                involve other ministries and ensure
                                                                                                                                            proper consultations with stakeholders
                                                                                                                                            (including the private sector) before
                                                                                                                                            the determination of tariff rates.
                                                                                                                                            Putting such a mechanism in place will
                                                                                                                                            ensure greater cooperation and
                                                                                                                                            coordination.




SIGAR 14-47-AR/Afghan Customs Revenue                                                                        Page 23
                                         Baseline            2010             2011                         2012                        2013
    Indicator           Type of                                                                                                                                     Definition
                       Indicator   Year          Data   Target   Result   Target    Result       Target       Result         Target          Result

IR 1.2: Assist Afghanistan and Other Countries in the Region in Negotiating and Implementing Bilateral and Regional Trade Agreements and WTO Accession Requirements
Number of              TAFA II     N/A       0          0        0        0        0            0            0              2            0            Afghanistan is interested in deepening
launched or signed                                                                                                                                    and expanding regional integration
initiatives on                                                                                                                                        through negotiating new and joining
regional integration                                                                                                                                  existing agreements (bilateral and
                                                                                                                                                      regional) related to trade, investment,
                                                                                                                                                      economic cooperation, transport, and
                                                                                                                                                      transit. This indicator captured
                                                                                                                                                      initiatives (agreements and
                                                                                                                                                      memorandums of understanding
                                                                                                                                                      (MOUs)) launched (or signed) in this
                                                                                                                                                      regard during TAFA.

Volume of trade        TAFA II     N/A       0          0        0        0        $1.9         5%           $1.9           5%           $489         Trade here refers to export/import of
with South Asian                                                                   billion in   increase     billion in     increase     million in   goods and services by SAFTA
Free Trade                                                                         1390         in trade     1391           in trade     first        countries. This indicator covered the
Agreement (SAFTA)                                                                                                                        quarter      increase in value of Afghanistan’s
member countries                                                                                                                         1392         trade with SAFTA member countries
                                                                                                                                                      taking advantage of SAFTA.

Weighted average       TAFA II     N/A       0          0        0        0        0            6.20%        5.80%          6.20%        5.50%        Weighted average tariff is share of
tariff level with                                                                                                                                     total duties collected to total value of
SAFTA countries                                                                                                                                       imports. This indicator measured
                                                                                                                                                      imports from SAFTA countries by
                                                                                                                                                      Afghanistan. The lower the tariff, the
                                                                                                                                                      more imports are coming.




SIGAR 14-47-AR/Afghan Customs Revenue                                                                             Page 24
                                           Baseline            2010             2011                2012                    2013
    Indicator             Type of                                                                                                                         Definition
                         Indicator   Year          Data   Target   Result   Target   Result   Target   Result         Target       Result

Number of                TAFA II     N/A       0          0        0        0        0        800      850            800      850          Goods on the sensitive list are exempt
sensitive tariff lines                                                                                                                      from the free trade agreement with
of Afghanistan                                                                                                                              SAFTA countries. Broader, deeper
under SAFTA                                                                                                                                 trade liberalization is achieved by
                                                                                                                                            reducing the number of goods on the
                                                                                                                                            sensitive list. TAFA assisted in reducing
                                                                                                                                            the list in 2011–2012 from 1,072 to
                                                                                                                                            857.

Number of WTO            TAFA II     N/A       0          0        0        0        0        8        6              8        8            Holding working party meetings and
working party                                                                                                                               bilateral/plurilateral negotiations is
bilateral and                                                                                                                               indicative of progress made toward
plurilateral                                                                                                                                WTO accession, greater liberalization,
meetings held                                                                                                                               and improvement in the policy, legal,
toward accession                                                                                                                            and institutional aspects related to
to WTO                                                                                                                                      Afghanistan’s foreign trade regime.

Number of                TAFA II     N/A       0          0        0        0        0        10       13             10       12           This indicator captured the effort made
documents                                                                                                                                   by Afghanistan to support its WTO
submitted to WTO                                                                                                                            accession process. This includes
in support of                                                                                                                               replies to questions/enquiries,
accession                                                                                                                                   conformity charts, notifications, offers
                                                                                                                                            and revised offers, special documents,
                                                                                                                                            and legislation (including drafts).




SIGAR 14-47-AR/Afghan Customs Revenue                                                                       Page 25
                                          Baseline            2010             2011               2012                    2013
    Indicator            Type of                                                                                                                         Definition
                        Indicator   Year          Data   Target   Result   Target   Result   Target   Result         Target       Result

Number of WTO-          TAFA II     N/A       0          0        0        0        0        10       10             10       15           Bringing the legal framework in line
related legal acts                                                                                                                         with WTO agreements is a pre-
advancing through                                                                                                                          condition for becoming a WTO
the legislative                                                                                                                            member. Legal reform in line with WTO
process                                                                                                                                    requirements will establish a
                                                                                                                                           conducive environment for trade and
                                                                                                                                           investment, reduce the cost of doing
                                                                                                                                           business, and lower opportunities for
                                                                                                                                           corrupt practices. It also will provide
                                                                                                                                           businesses with guaranteed and rapid
                                                                                                                                           access to administrative appeals and
                                                                                                                                           judiciary. This indicator captured
                                                                                                                                           progress in the legislative process
                                                                                                                                           when draft laws (including
                                                                                                                                           amendments) and sublegal acts
                                                                                                                                           (regulations, orders) move from one
                                                                                                                                           stage to another.

Number of draft         TAFA II     N/A       0          0        0        0        0        5        4              5        9            This captured the number of new draft
laws                                                                                                                                       laws and sublegal acts (including
prepared/finalized                                                                                                                         amendments) that were prepared with
at ministerial level                                                                                                                       TAFA assistance.
with TAFA support

Number of WTO-          TAFA II     N/A                  0        0        0        0        5        4              5        7            Acceding to the WTO requires
related institutional                                                                                                                      establishment of new institutions
reforms launched                                                                                                                           related to customs, trade, sanitary and
with TAFA support                                                                                                                          phytosanitary, technical barriers to
                                                                                                                                           trade, and intellectual property. This
                                                                                                                                           captured institutional reforms
                                                                                                                                           launched by Afghanistan with TAFA
                                                                                                                                           support.


IR 2: Customs Reforms Instituted



SIGAR 14-47-AR/Afghan Customs Revenue                                                                      Page 26
                                      Baseline               2010                     2011                   2012                        2013
    Indicator        Type of                                                                                                                                          Definition
                    Indicator   Year       Data      Target     Result        Target     Result     Target      Result        Target         Result

Growth in customs   TAFA I/     2009      $741      Tracking    $946         Tracking    $993      Tracking    $894           Tracking     $434         A customs duty and tax refers to tax on
revenue             TAFA II               million   only        million in   only        million   only        million in     only         million in   the import and export of goods
                                                                1389                     in 1390               1391                        first        collected by customs houses.
                                                                                                                                           quarter
                                                                                                                                           1392


Sub-IR 2.1: Improved Customs Procedures to Reduce Delays and Costs for Compliance with Customs Requirements
Number of Inland    TAFA I/     N/A       0         0           0            0           0         1           0            1              10           Customs streamlined procedure refers
Customs Depots      TAFA II                                                                                                                             to simplification of customs clearance
(ICDs)adopting                                                                                                                                          process for imports and exports by
customs                                                                                                                                                 eliminating unnecessary steps,
streamlined                                                                                                                                             procedures, and documents and
procedures                                                                                                                                              improving and streamlining clearance
                                                                                                                                                        procedures. In 2013, the resulting
                                                                                                                                                        number refers to ICDs at which
                                                                                                                                                        streamlined procedures had already
                                                                                                                                                        been implemented and at which TAFA
                                                                                                                                                        monitored compliance. The resulting
                                                                                                                                                        number is not new ICDs, but rather
                                                                                                                                                        those which enforced the procedures.

Customs             TAFA I/     2009      8 days    6 days      5 days       3 days      3 days    6 hours     3 hours      6 hours        3 hours      This indicator refers to the number of
processing times    TAFA II                                                                                    and 49                      and 27       days required for Customs processing
reduced (overall                                                                                               minutes                     minutes      of goods (import and export at key
and at key ICDs)                                                                                                                                        borders). It is required by contract, but
                                                                                                                                                        has been slightly reworded for greater
                                                                                                                                                        clarity.




SIGAR 14-47-AR/Afghan Customs Revenue                                                                               Page 27
                                        Baseline            2010                2011                      2012                      2013
    Indicator          Type of                                                                                                                                    Definition
                      Indicator   Year          Data   Target   Result    Target    Result      Target       Result        Target         Result

Number of steps       TAFA I/     N/A                                                          5            0            5            Import–3      Elimination of customs procedures
eliminated at ICDs    TAFA II                                                                                                                       means time and cost savings for
and Border                                                                                                                                          exporters. Elimination here refers to
Crossing Points                                                                                                                                     when a step is removed from customs
(BCPs )                                                                                                                                             procedures and no longer practiced at
                                                                                                                                                    that ICD or BCP.

Monetized value of    TAFA I      N/A       0          0        0        Tracking   $3.7       Tracking     $7.5         Tracking     $10.2         TAFA monetized the benefits of
reduced steps                                                            only       million    only         million at   only         million at    streamlined procedures at six ICDs.
                                                                                    at Kabul                Hairatan;                 Herat; $1.1   The dollar values indicate the value of
                                                                                    ICD;                    $24.8                     million at    savings of the stops removed that are
                                                                                    $1.4                    million at                Kandahar;     not aligned with the national blueprint.
                                                                                    million                 Jalalabad                 $0.8
                                                                                    at Kabul                                          million at
                                                                                    Airport                                           KIA
                                                                                    (KIA)

Number of ICD         TAFA I      N/A                                                          5            1 (Herat)    5            3             Monetized value is a financial
locations and key                                                                                                                                   measurement of a reduced steps
borders monetized                                                                                                                                   document or procedure.

Number of BCPs        TAFA II     N/A       0          0        0        0          0          Tracking     3            Tracking     2             The Border Management Model (BMM)
where Border                                                                                   only         (Hairatan,   only                       allows for information-sharing between
Management                                                                                                  Sher                                    the ACD and the Afghan Border Police
Model is rolled out                                                                                         Khan                                    and establishes roles and
                                                                                                            Bandar,                                 responsibilities for both agencies in the
                                                                                                            Islam                                   customs and immigration processes.
                                                                                                            Qala)

Number of ICDs        TAFA II     N/A       0          0        0        0          0          4            0            4            2             Risk management in the cargo
adopting risk                                                                                                                                       verification process will enhance
management                                                                                                                                          customs compliance measures without
system in customs                                                                                                                                   unfairly impeding legitimate traders.
clearances process                                                                                                                                  This activity started in 2012.




SIGAR 14-47-AR/Afghan Customs Revenue                                                                            Page 28
                                          Baseline              2010                2011                     2012                  2013
      Indicator          Type of                                                                                                                                   Definition
                        Indicator   Year          Data    Target    Result    Target    Result     Target       Result        Target       Result

Number of               TAFA I      N/A       0          0          0        0          0         4            0            4          0            TAFA reached an agreement with the
intelligence units                                                                                                                                  ACD Enforcement Directorate to
established at ICDs                                                                                                                                 identify regional intelligence officers
                                                                                                                                                    from mobile verification teams in four
                                                                                                                                                    main locations: Herat, Jalalabad,
                                                                                                                                                    Mazar, and Kandahar. Please see
                                                                                                                                                    section above on challenges for an
                                                                                                                                                    explanation of why TAFA did not meet
                                                                                                                                                    this target.

Number of               TAFA I      N/A       0          0          0        0          0         50           60           80         90           Intelligence profiles are an important
intelligence profiles                                                                                                                               tool that aids trade facilitation while
generated by the                                                                                                                                    ensuring compliance.
ACD

Number of               TAFA II     N/A       0          0          0        0          0         20           0            20         1            In line with the Tokyo Mutual
permanent                                                                                                                                           Accountability Framework and the
professional                                                                                                                                        National Action Plan for Women, TAFA
positions allocated                                                                                                                                 supported the ACD in meeting
for women at the                                                                                                                                    benchmarks related to increasing
ACD                                                                                                                                                 female participation in elected and
                                                                                                                                                    appointed bodies at all levels of
                                                                                                                                                    governance to 30 percent by 2020.

Number of female        TAFA II     N/A       0          0          0        0          0         20           0            20         20           TAFA partnered with the USAID-funded
interns completing                                                                                                                                  Women in Government program to
a six-month                                                                                                                                         implement an internship program at
internship at the                                                                                                                                   the ACD for university women.
ACD

Value of goods          TAFA I      2009      $1.5       Tracking   0        Tracking   $2.2      Tracking     $4 million   0          0            The Generalized System of Preferences
exported to the                               million    only                only       million   only                                              is a scheme where a wide range of
United States                                                                                                                                       industrial and agricultural products
taking advantage                                                                                                                                    originating in certain developing




SIGAR 14-47-AR/Afghan Customs Revenue                                                                               Page 29
                                         Baseline            2010                  2011                2012                    2013
    Indicator           Type of                                                                                                                                   Definition
                       Indicator   Year          Data   Target   Result    Target        Result   Target   Result         Target       Result
of Generalized                                                                                                                                  countries are given preferential access
System of                                                                                                                                       to the U.S. market.
Preferences




Number of new          TAFA I      N/A       0          0        0        0           0           4        10         0            0            A new request, offer, revised offer, or
requests, offers,                                                                                                                               other format text submitted by a host
revised offers, or                                                                                                                              county represents significant progress
other format texts                                                                                                                              toward WTO accession. Data were
that are submitted                                                                                                                              maintained on each type of new
by a host country                                                                                                                               request or offer. This indicates
                                                                                                                                                progress made in negotiations toward
                                                                                                                                                liberalization.

Number of trade-       TAFA I      N/A       0          0        2                                1        2          0            0            In 2010, Afghanistan signed the APTTA
related                                                                                                                                         and SAFTA agreements.
international
agreements and/or
MOUs signed


Sub IR 2.2: Improved Speed and Efficiency of Transit and Transportation of Goods
Number of ICDs         TAFA II     N/A       0          0        0        0          0            4        0          4            0            TAFA implemented solutions to use e-
where e-money                                                                                                                                   money for automated payment of
payment system                                                                                                                                  transit fees and guarantees, to quickly
introduced                                                                                                                                      facilitate trade while removing
                                                                                                                                                redundant steps for cash payments.
                                                                                                                                                See challenges section above for an
                                                                                                                                                explanation of this missed target.

Number of              TAFA II     N/A       0          0        0        0          0            3        0          3            1            USAID and TAFA visited Pakistan,
impediments                                                                                                                                     Tajikistan, and Uzbekistan to identify
eliminated to cross-                                                                                                                            potential regional cooperation,
border trade with                                                                                                                               harmonization, and integration. TAFA




SIGAR 14-47-AR/Afghan Customs Revenue                                                                           Page 30
                                       Baseline            2010                2011                       2012                      2013
    Indicator         Type of                                                                                                                                    Definition
                     Indicator   Year          Data   Target   Result    Target       Result    Target       Result        Target         Result
Pakistan and other                                                                                                                                 continued to find impediments to
countries in the                                                                                                                                   cross-border trade with these countries
region                                                                                                                                             and suggest solutions for elimination.




Number of            TAFA II     N/A       0          0        0        0         0            4            1            4            1            The initial council meeting was in
Customs and Trade                                                                                                                                  December 2012 with the Afghanistan
Consultative                                                                                                                                       Chamber of Commerce and Industries,
Council meetings                                                                                                                                   to confirm the terms of reference for
held to provide                                                                                                                                    future meetings.
interaction within
private sector,
including women-
owned businesses
and customs


IR 3: Trade Facilitation Strengthened
Increase in trade    TAFA II     N/A       0          0        0        0          0           Tracking     $1.1         Tracking     $271         This includes the total value of trade
with Central Asian                                                                             only         billion in   only         million in   with Kazakhstan, Tajikistan,
Republic countries                                                                                          1391                      first        Turkmenistan, and Uzbekistan.
                                                                                                                                      quarter
                                                                                                                                      1392


Sub-IR 3.1: Increased Management Capacity of Private Sector Production and Marketing Enterprises




SIGAR 14-47-AR/Afghan Customs Revenue                                                                            Page 31
                                        Baseline            2010               2011                        2012                  2013
    Indicator          Type of                                                                                                                                  Definition
                      Indicator   Year          Data   Target   Result    Target       Result    Target       Result        Target       Result

Value of export       TAFA II     N/A                                                           Not          0          5%           $673,450     Export sales value based on what is
sales increased by                                                                              reported                                          invoiced to the client; value of
project-supported                                                                                                                                 executed contracts. The target of 5%
firms                                                                                                                                             was set before identification of firms
                                                                                                                                                  to be included in specific activities. In
                                                                                                                                                  the end, these firms were willing to
                                                                                                                                                  share the value of resulting export
                                                                                                                                                  sales, but not the size of their overall
                                                                                                                                                  revenue due to considerations related
                                                                                                                                                  to security and competition.

Number of firms       TAFA II     N/A       0           0          0     0         0            Not          0          20           115          Any firm participating in any export
receiving project-                                                                              reported                                          partnership activity.
supported capacity
building assistance
to increase exports

Number of             TAFA II     N/A       0           0          0     0         0            5            1          5            9            Market research, short-term technical
technical                                                                                                                                         assistance to government and/or
assistance and                                                                                                                                    private sector beneficiaries, study
capacity building                                                                                                                                 tours and international trade
activities provided                                                                                                                               fairs/exhibitions, exporter training
to firms and trade                                                                                                                                sessions.
promotion
agencies


Sub-IR 3.2: Improved Coordination and Collaboration of Private Sector Engagement through Central and South Asia




SIGAR 14-47-AR/Afghan Customs Revenue                                                                             Page 32
                                        Baseline            2010             2011                     2012                  2013
    Indicator          Type of                                                                                                                             Definition
                      Indicator   Year          Data   Target   Result   Target   Result    Target       Result        Target       Result

Number of new         TAFA II     N/A       0          0        0        0        0        Not          0          2            0            TAFA supported participation of Afghan
contracts between                                                                          reported                                          firms in Agro World and the World Food
local producers                                                                                                                              Exhibition on April 3-5, 2013 in
and Central Asian                                                                                                                            Tashkent, Uzbekistan. As a result,
Republic vendors                                                                                                                             more opportunities were created for
                                                                                                                                             Afghan producers and Central Asian
                                                                                                                                             Republic vendors to start businesses.

Number of TAFA-       TAFA II     N/A       0          0        0        0        0        Not          0          3            1            Activities include grants, technical
sponsored                                                                                  reported                                          assistance, research papers, business
activities aimed at                                                                                                                          training, trade fairs, and conferences.
engaging Central
Asian and Afghan
women in the
economy

Number of regional    TAFA II     N/A       0          0        0        0        0        2            0          2            3            TAFA identified regional trade events in
trade events                                                                                                                                 the Central Asian republics that Afghan
attended by Afghan                                                                                                                           firms can attend, offering opportunities
firms                                                                                                                                        for networking and identifying possible
                                                                                                                                             business partners. These events
                                                                                                                                             helped identify new markets for Afghan
                                                                                                                                             goods and give Afghan businesses the
                                                                                                                                             opportunity to identify the standards
                                                                                                                                             they need to compete in the Central
                                                                                                                                             Asian republics.




SIGAR 14-47-AR/Afghan Customs Revenue                                                                        Page 33
                                         Baseline            2010                    2011                   2012                  2013
    Indicator           Type of                                                                                                                                   Definition
                       Indicator   Year          Data   Target   Result     Target      Result    Target       Result        Target       Result

Number of              TAFA I      2009      12         0        12        10          10        9 import;    10          0           0            Based on the World Bank’s Doing
documents                                    export;             export;   import;     import;   9 export     import;                              Business 2010, in Afghanistan 11
required for                                 11                  11        10          10                     10 export                            documents are required for import and
import/export                                import              import    export      export                                                      12 for export. TAFA found that more
                                                                                                                                                   documents were required for import
                                                                                                                                                   and export than Doing Business
                                                                                                                                                   reported. This component worked with
                                                                                                                                                   government counterparts to come up
                                                                                                                                                   with a list of documents required for
                                                                                                                                                   import and export. This list was used as
                                                                                                                                                   the baseline, and targets were set
                                                                                                                                                   accordingly.

Number of trade-       TAFA I      N/A       0          0        0         0           0         2            0           0           0            There are no specific laws and
related public-                                                                                                                                    regulations in Afghanistan that enable
private partnership                                                                                                                                public-private partnerships and ensure
projects developed                                                                                                                                 protection for private investors.
for government to
implement

Number of              TAFA I      N/A       0          0        0         Tracking    750       1,250        0           0           0            This means the number of exporters
exporters using                                                            only                                                                    that take advantage of one-stop shops.
services of the one-                                                                                                                               The targets are not cumulative.
stop shop

Number of licensed     TAFA I      2009      0          0        80        40          131       0            0           0           0            Licensed freight-forwarders refers to
freight-forwarders                                                                                                                                 the number of freight-forwarders
that take part in                                                                                                                                  registered with the Afghanistan Freight
transport capacity                                                                                                                                 Forwarding Association.
building


Cross-Component Indicators




SIGAR 14-47-AR/Afghan Customs Revenue                                                                              Page 34
                                        Baseline            2010                 2011                2012                  2013
    Indicator          Type of                                                                                                                          Definition
                      Indicator   Year          Data   Target   Result   Target     Result   Target     Result        Target    Result

Number of U.S.        TAFA I      N/A       0          20       21       40        103       33        51         33           39        Training is defined as a TAFA-led
government-                                                                                                                              training activity that is related to
supported training                                                                                                                       improving the trade environment. It
events held that                                                                                                                         refers to an activity in Afghanistan or
relate to improving                                                                                                                      another country that is intended for
the trade                                                                                                                                teaching or providing knowledge and
environment                                                                                                                              information on a specific topic.

Number of person-     TAFA I      N/A       0          0        0        1,730     4,080     1,400     1,489      1,400        542       Key personnel are defined as female
days of training of                                                                                                                      and male personnel who are targeted
key personnel in                                                                                                                         for training and receive training. A
trade and customs                                                                                                                        person-day is a 7-hour day of training
regulation                                                                                                                               received by one person.

Number of public      TAFA I      N/A       0          50       52       80        84        60        65         30           41        A public event is defined as a TAFA-led
events held to                                                                                                                           and/or -supported trade-related activity
discuss trade and                                                                                                                        such as a conference, seminar,
business policy                                                                                                                          coordination meeting, working group
matters with                                                                                                                             meeting, trade-related fair, roundtable,
stakeholders and                                                                                                                         consultative process, forum,
public                                                                                                                                   presentation to major gathering of
                                                                                                                                         university students, public-private
                                                                                                                                         partnership event, launch of trade
                                                                                                                                         campaign, presentation to National
                                                                                                                                         Assembly members or ministries, other
                                                                                                                                         key events that stakeholders attended.




SIGAR 14-47-AR/Afghan Customs Revenue                                                                       Page 35
                                        Baseline              2010               2011             2012                    2013
    Indicator          Type of                                                                                                                           Definition
                      Indicator   Year          Data    Target    Result   Target   Result   Target   Result         Target       Result

Number of new         TAFA II     N/A       0          0          0        0        0        10       25         13           12           Policy, procedures, and management
policy, procedures,                                                                                                                        tools developed for the ACD with TAFA
and management                                                                                                                             technical assistance for management
tools developed for                                                                                                                        practices.
the ACD with TAFA
technical
assistance for
management
practices

Number of vehicles    TAFA I      2009      1,500      Tracking   0        0        0        0        0          0            0            Definition and methodology is based
entering/exiting                            per day    only                                                                                on the number of declarations by the
key borders                                                                                                                                number of vehicles paying customs
                                                                                                                                           duties. The key borders included Herat,
                                                                                                                                           Jalalabad, Kandahar, Mazar, and
                                                                                                                                           Nimroz (not including International
                                                                                                                                           Security Assistance Force goods).


Public Outreach
Number of media       TAFA I      2009      26         0          87       100      170      0        0          0            0            This indicator refers to the number of
articles published                                                                                                                         trade-related articles published in daily
on trade                                                                                                                                   newspapers.

Number of trade-      TAFA I      N/A       0          0          0        4        3        0        0          0            0            “Campaigns” refers to major
and customs-                                                                                                                               campaigns, such as those to reach
related                                                                                                                                    stakeholders in provinces on trade
communication                                                                                                                              agreements.
campaigns
conducted with
counterparts




SIGAR 14-47-AR/Afghan Customs Revenue                                                                      Page 36
                                        Baseline                2010                  2011             2012                   2013
    Indicator          Type of                                                                                                                               Definition
                      Indicator   Year         Data        Target   Result   Target      Result   Target   Result        Target       Result

Number of public      TAFA I      N/A      0               0        6,605    11,000     10,355    0        0         0            0            Information and materials printed and
information printed                                                 copies                                                                     distributed to the public.
materials
distributed

Change in people’s    TAFA I      N/A      91%             0        0        0          0         0        0         0            0            Change here refers to the change in
perception toward                          positive view                                                                                       the public’s attitude toward trade.
trade                                      in trade/                                                                                           The2010 survey on Afghans’
                                           knowledge,                                                                                          knowledge, attitudes, and practices
                                           attitudes,                                                                                          related to trade and its potential
                                           practices                                                                                           benefits for Afghanistan.
                                           survey


Source: TAFA Final Report, August 31, 2013
Note: N/A = Not Applicable.




SIGAR 14-47-AR/Afghan Customs Revenue                                                                          Page 37
APPENDIX IV - AFGHANISTAN TRADE AND REVENUE PROGRAM CONTRACT
REVIEW

The Afghanistan Trade and Revenue (ATAR) program contract states that, “The purpose of ATAR is to provide
technical support and assistance aimed to strengthen the business climate of Afghanistan to enable private
investment, enhanced trade, job creation, and fiscal sustainability through the critical Transition period and
continuing into the Transformational Decade.” The ATAR contract further states that the program will achieve
these goals by
           “1) improving the capacity of the Government of the Islamic Republic of Afghanistan to
           formulate and implement a liberal policy framework for trade and investment in accordance
           with international standards; 2) enhancing integration in the regional and world economy
           through the promotion of trade agreements, enhanced economic corridors governance, and
           private sector linkages throughout South and Central Asia; and 3) strengthening revenue
           generation for fiscal sustainability and trade facilitation through reforms and anti-corruption
           measures in customs and taxation.”
Finally, the contract requires the implementing partner to provide: “1) technical assistance on trade
agreements, WTO accession, and rules compliance; 2) organization of regional trade fairs and private
sector matchmaking events;40 and 3) capacity building for the implementation of reforms in customs,
and for Value-Added Tax implementation.”41 Specific customs reforms include continued work on the
Border Management Model,42 risk management, customs procedures modernization and streamlining,
and customs procedures harmonization with customs of other countries—all initiatives begun under
the TAFA programs.




40   Private sector matchmaking events aim to connect Afghan business with potential international trade partners.
41   USAID contract number AID-OAA-I-12-0035, signed November 7, 2013.
42The Border Management Model provides guidelines for the roles and responsibilities of Afghan agencies operating at
customs and border locations.




SIGAR 14-47-AR/Afghan Customs Revenue                                                                                Page 38
APPENDIX V - ADDITIONAL OBJECTIVES FOR THE BORDER MANAGEMENT TASK
FORCE

The subcontract executed between CACI, Inc. and Fedsys, Inc. for task order 0096, signed on December 19,
2012, states that the purpose of the Border Management Task Force (BMTF)
          “Is to assist and provide guidance to the Government of Islamic Republic of Afghanistan
         (GIRoA), in the development and operation of a sustainable, strategic, integrated border
         management program by improving operational processes within the international recognized
         ports of entry and inland customs depots, as well as between GIRoA border agencies and
         departments. In addition the BMTF assists with the Afghan Border Security Mission through
         the integration of the Civilian, Military and GIRoA goals, while coordinating with International
         and Regional Partners combating the transnational issue of narcotics and smuggling.”43
More specifically, the subcontract between CACI, Inc. and Fedsys, Inc. for the provision of BMTF services in
Afghanistan lists the following objectives, stating mentors must assist the Afghan government:
        “Develop inspection and reporting strategies for dealing with cross-border trade and customs
         violations, to include smuggling of narcotics, explosives, and other illicit materials
        Improve cooperation and coordination with other regional customs and border management agencies
        Identify training needs for inspection and detection techniques for the on-site Afghan Border
         Management personnel
        Identify techniques to assist in the inspection of immigration documents and recording and reporting
         immigration data
        Coordinate meetings with GIRoA [Government of the Islamic Republic of Afghanistan] ministries and
         departments, foreign government organizations, and key U.S. Government civilian and military
         personnel and contractors
        Identify training needs for inspection and detection techniques for the on-site Afghan Border
         Management personnel
        Provides technical and policy expertise to the Combatant Commander and his staff concerning port
         and border security operations, domestic and international customs procedures, and other issues
         concerning immigration, smuggling, and trafficking
        Establish proper controls for importation and exportation on foods entering the country. The controls
         ensure that no narcotics leave the country and no pre-cursors enter the country, by helping instill a
         compliance and enforcement regime in Afghanistan
        Identify and articulate white paper for potential immediate, impact projects that would enhance and
         support the processes at POE [points of entry]; to include potential small scale capacity building
         construction projects
        Will be required to undertake various administrative tasks in support of both individual and mission
         activities.”44
The subcontract further provides a list of items that the subcontractor’s monthly status report must detail.
These requirements include a summary of the work being performed under the task order, a detailed


43 Prime contract number W15P7T-06-D-E402, Subcontract number S13-126600, signed on December 19, 2012. The

subcontract lists several border management mentor objectives more specifically, but still lacks clear metrics or indicators
against which performance can be measured; see appendix V for a complete list of the BMTF objectives contained in the
subcontract.
44 Prime contract number W15P7T-06-D-E402, Subcontract number S13-126600, signed on December 19, 2012.




SIGAR 14-47-AR/Afghan Customs Revenue                                                                               Page 39
description of each month’s accomplishments, the subcontractor’s plan for the next month, any significant
developments from the prior month, descriptions of any problems encountered, and a description of the
financial status of the project.
The subcontract executed between CACI, Inc. and Fedsys, Inc. for task order 0127, signed on October 11,
2011, provides even less guidance to BMTF advisers than the subcontract for task order 0096. This
subcontract simply states that Fedsys, Inc. should
          “Provide In-Country C4ISR [Command, Control, Communications, Computers, Intelligence, Surveillance
           and Reconnaissance] experts to station/deploy into USCENTCOM [U.S. Central Command] and other
           countries to perform C4ISR [Command, Control, Communications, Computers, Intelligence,
           Surveillance and Reconnaissance] and Counter Narcotics communication systems quality assurance
           tasks, witness testing, assist in training events, NIU [National Interdiction Unit] firing and training
           range management, and provide liaison/coordination between customer nations, embassies and C2D
           [Command and Control Directorate]. The C2D Counter Narcotics Program Coordinators shall report
           back to CENTCOM HQ [Headquarters], as well as the C2D task leader to ensure current projects are
           delivered on time and within budget.
          Oversee the design, installation and integration of all C4ISR equipment (to include existing equipment,
           Furnished equipment (CFE), Government Furnished Equipment (GFE), etc.) being fielded to the host
           nations.
          Develop detailed plans, goals, and objectives. Analyze, balance, and reconcile program requirements
           with available resources.
          Provide the analysis of user requirements, preparation of plans and other associated documentation,
           on-site supervision, risk assessments, mission analysis, and any other similar activity relevant to C2D
           events. The subcontractor may be required to perform test and/or inspection activities in support of
           C2D.”45
In addition to the above requirements, the subcontract states that Fedsys, Inc. “shall support the Government
in identifying C4ISR training requirements and shall support the Government in obtaining or developing training
personnel.” The subcontract goes on to state that the training programs to be provided by Fedsys, Inc. in
Afghanistan will include the BMTF. Finally, the subcontract for task order 0127 states that the subcontractor
shall provide a summary of work performed, progress achieved and any applicable milestones, potential
problems and solutions, and what work will be performed over the next period on a monthly basis.




45   Prime contract number W15P7T-06-D-E402, Subcontract number S12-120216, signed on October 11, 2011.



SIGAR 14-47-AR/Afghan Customs Revenue                                                                      Page 40
APPENDIX VI - U.S. CUSTOMS AND BORDER PROTECTION COMMENTS


                                                                                     1300 Pc1msylvania Avenue NW
                                                                                     Washington. DC 20229



                                                                                     U.S. Customs and
                                                                                     Border Protection


            March 31,2014



            Mr. John F. Sopko
            Special Inspector General for Afghanistan Reconstruction
            400 Army Navy Drive
            Arlington, VA 22202

            Re: Draft Report SIGAR Audit 083A: "AFGHAN CUSTOMS: U.S. Programs Have Had
            Some Successes, but Challenges will Limit Customs Revenue as a Sustainable Source oflncome
            for Afghanistan"

            Dear Mr. Sopko:

            Thank you for the opportunity to review and comment on this draft report. The U.S. Customs
            and Border Protection (CBP), Office oflntemational Affairs (INA) appreciates the Special
            Inspector General for Afghanistan Reconstruction's (SIGAR's) work in planning and conducting
            its review and issuing this report.

            CBP/INA is pleased to note that many successes by the Border Management Task Force (BMTF)
            were included in the report. SIGAR also found the Department of Defense (DOD) contract
            lacking for specific metrics for the program. While CBP does not fund or manage the
            contractual aspects of the BMTF program, a recommendation will be made from CBP to DOD,
            U.S. Central Command (CENTCOM) to incorporate metrics into the contractual language of any
            future BMTF contracts or task orders.

            CBP has led the BMTF program since its inception in 2006. The primary mission of the BMTF
            is to build strategic and operational capacity of the Afghan Border Police (ABP), Afghan
            Customs Department (ACD) and Afghan Customs Police (ACP) to enable them to gain
            operational control of their borders while facilitating legal trade and travel. While the contracted
            mentors have passed through a number of contracting companies, CBP has consistently managed
            and improved the perfo1mance metrics, both qualitatively and quantitatively, used to monitor the
            effectiveness and impact of the BMTF Program.

            There are a number of qualitative measures employed to monitor the overall performance of the
            contract. These include such items as the weekly reports completed by each mentor and
            submitted to the CBP Attache, twice weekly conference calls with the Attache to discuss
            progress and issues, semi-a1mual team leaders' conferences, and regular site visits and interviews
            conducted by CBP personnel at each location. Additionally, a CBP representative is deployed
            forward, to each regional command, to monitor and direct the mentors in that specific region.




SIGAR 14-47-AR/Afghan Customs Revenue                                                                              Page 41
            There are also quantitative measures employed to measure the effectiveness of the program.
            These include the following:

                •   Mission Essential Capabilities (MEC). This program, begun in 2011, meas ured standards
                    necessary to conduct baseline operations at the respective Border Crossing Point (BCP)
                    and Ports of Entry (POE). The MEC measured the Afghan's ability to achieve a level of
                    operations to deny the entry of unauthorized goods and people, facilitate legal travel and
                    migration, and maximize revenue growth and commerce.
                •   Borders Efficiency and Capabilities Assessment (BECA). The MEC was expanded in
                    2013 and became the BECA. The BECA expanded the MEC concept, measuring the
                    following:
                        o Equipment shortfall and surplus for resupply and re-allocation
                        o Agency progress towards operational goals
                        o Skill deficiencies or proficiency in mission essential tasks
                        o Effective/Ineffective implementation of policy and procedures
                •   In 20 14, the BECA was refined again, this time creating an Afghan lead for the program.
                    This will allow for shared responsibilities for improvements while transferring the
                    program to a sustainable Afghan lead. The program was also simplified to make an
                    "Afghan Right" pro~:,rram that could be sustained upon CBP/BMTF departure.

             These measurements are shared with CENTCOM as they are reported. They are also discussed
             with CENTCOM during semi-annual reviews where the allocation of resources is reviewed for
             effectiveness. Additionally, CENTCOM also uses these metrics to adhere to their own DOD
             metrics reporting requirements.

             There are a number of issues that will affect metric achievability to include:
                • Limited and varying site access due to security issues.
                • A second and third order effect such as a change in leadership, affecting seizure numbers
                  . by the ABP/ACD.
                • Reduction in Customs revenue due to a reduced foreign presence at the same time of
                    possible increasing efficiency by the ACD.

             The report contained one recommendation addressed to the CBP Commissioner to help assess if
             the BMTF program is achieving its intended outcomes.

             Recommendation 1: Develop clear perfom1ance metrics for BMTF mentor operations and
             submit such metrics to DOD/CENTCOM for incorporatio n into any future BMTF contracts or
             task orders.

             CBP Response: Concur. The CBP attache in Afghanistan will develop clear performance
             metrics for BMTF mentor operations, and will submit such metrics to DOD/CENTCOM for
             incorporation into any future BMTF contracts or task orders.

             Estimated Completion Date: September 30, 20 14




SIGAR 14-47-AR/Afghan Customs Revenue                                                                            Page 42
             CBPITNA remains committed to continui ng its work with the U.S. Department of State and other
             relevant stakeholders in efforts to assist in developing the capacity of the Afghan govemment to
             assess and collect customs revenue. During a recent visit to the United States by the ACD
             Director General, it was revealed that the ACD was developing a Five-Year Strategic Plan. The
             Director General stated that he would provide CBP with a copy of the strategy in the near future.
             CBP looks forward to continuing its close working relationship with the ACD, ACP, and ABP.

             Thank you again for the opportunity to review and comment on this draft report. The U.S.
             Customs and Border Protection (CBP) appreciates the Special Inspector General for Afghanistan
             Reconstruction's (SIGAR's) work in planning and conducting its review and issuing this report.
             Technical comments have been submitted under separate cover. We look forward to working
             with you on future Homeland Security issues.

                                                  Sincerely,



                                                 ~~
                                                  James F. Tomshcck
                                                  Assistant Commissioner
                                                  Office oflntcmal Affairs




SIGAR 14-47-AR/Afghan Customs Revenue                                                                            Page 43
APPENDIX VII - U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT COMMENTS




                  MEMORANDUM

                  DATE:                         March 3 1, 20 14

                  TO:                           John F. Sopko, Special lnspector Genera l for Afghanistan
                                                Reconstruction (SJGAR)

                  FROM :                        Will iam Hammink, Miss ion Director for the U.S. Ag
                                                for Tnrernational Development (USA ID) Afghanistan

                  SUBJECT:                      The Mission Response to Draft SlGAR Report, "Afghan
                                                Customs: U.S. Programs Have Had Some Success, But
                                                Challenges Will Limit C ustoms Revenue as a Susta inable
                                                Source oflncome fo r Afghanistan" (S IGA R Audit 14-XX-
                                                AR)

                  REF:                          SIGAR Transmitta l ema il dated 03/0 1/20 14

                  Thank you for providing USAID w ith the opportunity to respond to the
                  referenced audit repo n , examining U.S. Government efforts in assessing and
                  co llecting custo ms revenue in Afghanistan. The audi t repon covers programs
                  implemented by US A ID and the Department of Homeland Securiry Cus toms
                  and Border Protection (CPO) and includes rwo aud it recommendations
                  addressed to USAID.

                  We appreciate SIGAR' s acknowledgement of USA TO accomplishments in
                  improving the trade and customs environment in Afghanistan. T he Trade
                  Accession and Facilitation for Af ghanistan (TAFA I and / /) programs have
                  contributed significantly to reduc ing the customs processing tim es and steps
                  required to trade across Afghanistan 's borders. Despite th ese successes, major
                  challenges rema in, as a lluded to in the rep01t, w ith transforming processes and
                  procedures relating to custo m revenue collection.

                  USA lD agreed w ith the find ings in the audit repo rt and has presented below its
                  response to the recommendations.




                                                               Tel: 202·216-6288/ 0700.108-001
                  U.S . Agency for International Development   Email: kabulusaidinformation@usaid gov
                  Great Massoud Road                           htto·//afghanistan usaid gov
                  Kabul. Afghanistan




SIGAR 14-47-AR/Afghan Customs Revenue                                                                       Page 44
                                                           2


                  RECOMMENDATION:

                  2. Direct the Afghanistan Trade and Revenue .(ATAR) implementing
                     partner to continue to work with Afghanistan's Tariffs Statistics Unit to
                     reduce discrepancies in customs data and make the reduction in
                     statistical discrepancies a requirement of the contract for the ATAR
                     program.


                  USAID COMMENT:

                  USAID partially concurs with this recommendation. While USAID has
                  considered SIGAR's recommendation to include in the contract a performance
                  requirement relating to statistical discrepancies, USAID finds it impossible to
                  do so because the discrepancies in customs data are often driven by factors
                  outside the control of the project, which does not manage the data.

                  "Reduction in discrepancy between the Central Statistics Office and the ACD
                  on trade statistics" is currently a USAID requested indicator. The target set for
                  2014 is a reduction to 20% discrepancy between CSO and ACD statistics.

                  There are two types of discrepancies in customs data that ATAR wiii continue
                  to address in the future:

                     A. Discrepancies between data reported by the Afghanistan Customs
                        Department (ACD) and by the Central Statistics Organization (CSO), and

                     B. Anomalies in ACD collected data due to technical and other difficulties.

                  USAID continues to ensure that ATAR works with ACD to improve the
                  accuracy, completeness and reliability of data it collects. Anomalies and
                  missing data will decline as more staff and institutional capacity building is
                  provided to ACD by ATAR.

                  To address this recommendation, USAID will issue a letter directing the
                  Implementing Partner (IP) to continue to put forth efforts to decrease
                  discrepancies between Central Statistics Organization (CSO) and Afghan
                  Customs Department (ACD) statistics.

                  Target Closure Date: May 2014




SIGAR 14-47-AR/Afghan Customs Revenue                                                                 Page 45
                                                          3


                  RECOMMENDATION:

                  3. Ensure that annual targets for implementation of anti-corruption
                     measures, such as the electronic payment system, are included as
                     performance requirements in the ATAR program contract.


                  USAID COMMENT:

                  USAID partially concurs with the recommendation. USAID cannot include in
                  ATAR's contract the use of ACD's anti-corruption systems as performance
                  requirements because the ACD is responsible for institutionalizing these
                  systems, not ATAR.

                  ATAR included in its annual work plan targets with timelines for development
                  of systems that facilitate trade and curb corruption at ACD, such as
                  institutionalizing the Border Management Model (BMM), strengthening
                  customs code and policies, implementing risk-management systems, and
                  implementing electronic payment of customs debt. These systems were chosen
                  in close coordination with ACD officials and USAID expects that they will be
                  employed by ACD. USAID will closely monitor the IP and continue to
                  encourage ACD to use these systems.

                  In response to the audit recommendation, USAID will issue a letter directing
                  the Implementing Partner to continue to put forth its best effort in implementing
                  anti-corruption measures.

                  Target Closure Date: May 2014



                  Cc: U.S. Embassy KabuVCoordination Directorate




SIGAR 14-47-AR/Afghan Customs Revenue                                                                 Page 46
APPENDIX VIII - ACKNOWLEDGEMENTS

Matthew Dove, Senior Audit Manager

Christopher Borgeson, Senior Program Analyst

Martin Wilson, Program Analyst



The following staff provided additional support:


Mia Bonarski, Methodologist




SIGAR 14-47-AR/Afghan Customs Revenue              Page 47
                                   This audit report was conducted
                                   under project code SIGAR-083A.




SIGAR 14-47-AR/Afghan Customs Revenue                                Page 48
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the US Congress, US agencies, and other
                               decision-makers to make informed oversight, policy, and funding
                               decisions to:
                                           improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                           improve management and accountability over funds
                                            administered by US and Afghan agencies and their
                                            contractors;
                                           improve contracting and contract management
                                            processes;
                                           prevent fraud, waste, and abuse; and
                                           advance US interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs                 Web: www.sigar.mil/fraud
                                           Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                           Phone Afghanistan: +93 (0) 700-10-7300
                                           Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                           Phone International: +1-866-329-8893
                                           Phone DSN International: 312-664-0378
                                           US fax: +1-703-601-4065




              Public Affairs   Public Affairs Officer
                                           Phone: 703-545-5974
                                           Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                           Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
